<html>
<title> - FACING THE METHAMPHETAMINE PROBLEM IN AMERICA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





             FACING THE METHAMPHETAMINE PROBLEM IN AMERICA

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2003

                               __________

                           Serial No. 108-93

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

91-423              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                 Christopher A. Donesa, Staff Director
              Nicholas Coleman, Professional Staff Member
                         Nicole Garrett, Clerk
                  Julian A. Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 18, 2003....................................     1
Text of H.R. 834.................................................     4
Statement of:
    Boozman, Hon. John, a Representative in Congress from the 
      State of Arkansas..........................................    30
    Case, Hon. Ed, a Representative in Congress from the State of 
      Hawaii.....................................................    34
    Guevara, Roger E., Chief of Operations, Drug Enforcement 
      Administration; and John C. Horton, Associate Deputy 
      Director for State and Local Affairs, Office of National 
      Drug Control Policy........................................    50
    Kelly, Bill, captain, Sacramento Country Sheriff's 
      Department, narcotics division.............................    87
    Martinek, Brian J., chief, Vancouver, WA, Police Department..    93
Letters, statements, etc., submitted for the record by:
    Boozman, Hon. John, a Representative in Congress from the 
      State of Arkansas, prepared statement of...................    32
    Case, Hon. Ed, a Representative in Congress from the State of 
      Hawaii, prepared statement of..............................    37
    Cumings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    42
    Guevara, Roger E., Chief of Operations, Drug Enforcement 
      Administration, prepared statement of......................    53
    Horton, John C., Associate Deputy Director for State and 
      Local Affairs, Office of National Drug Control Policy, 
      prepared statement of......................................    69
    Kelly, Bill, captain, Sacramento Country Sheriff's 
      Department, narcotics division, prepared statement of......    89
    Martinek, Brian J., chief, Vancouver, WA, Police Department, 
      prepared statement of......................................    97
    Sanchez, Hon. Linda T., a Representative in Congress from the 
      State of California, prepared statement of.................    27
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................    22

 
             FACING THE METHAMPHETAMINE PROBLEM IN AMERICA

                              ----------                              


                         FRIDAY, JULY 18, 2003

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2203, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Ose, Cummings, Sanchez, 
Ruppersberger, and Norton.
    Also present: Representative Baird.
    Staff present: Christopher A. Donesa, staff director; 
Nicholas Coleman, professional staff member; John Stanton, 
congressional fellow; Nicole Garrett, clerk; and Julian A. 
Haywood, minority counsel.
    Mr. Souder. The Subcommittee on Criminal Justice, Drug 
Policy and Human Resources hearing will now come to order.
    Good morning and thank you all for coming. This hearing 
continues our effort to highlight Federal responses to the 
problem of methamphetamine abuse. The problem most visibly has 
manifested itself locally in towns and rural areas across the 
country, but the array of meth-related problems from small labs 
nationwide to so called ``super labs'' in California, to the 
environmental consequences, to the social toll and cost of 
addiction clearly are a significant national problem that 
requires increasing Federal attention.
    Today we will consider how the Federal Government can best 
support efforts to control and prevent abuse of 
methamphetamines across the country. Meth is among the most 
powerful and dangerous stimulants available. The drug is highly 
addictive and has multiple side effect, including psychotic 
behavior, physical deterioration and brain damage, and carries 
a high risk of death by overdose. Unfortunately, it also is 
relatively easy to produce from common household chemicals and 
cold medicines.
    The growth of the meth problem in the last decade, both in 
the number of addicts and the number of areas affected, has 
been particularly severe. What was once primarily a regional 
problem, concentrated mainly in southern and central 
California, has now spread across most of the United States. 
Today nearly every State and every congressional district has 
been forced to grapple with meth trafficking and abuse.
    Meth comes from two major sources of supply. Most is 
produced in the super labs of California and northern Mexico, 
which have accounted for over 70 percent of the Nation's 
supply.
    This subcommittee held a hearing in Congressman Ose's 
district in central California on the super lab issue just a 
few years ago. These super labs are operated by large Mexican 
drug cartels and outlaw motorcycle gangs that have used their 
established distribution networks to move meth throughout the 
country.
    These organizations import huge quantities of precursor 
chemicals like pseudoephedrine from Canada, a practice made 
necessary by tougher U.S. penalties against precursor diversion 
and effective enforcement by DEA and other law enforcement 
agencies. And as we heard at our last hearing, we continue to 
work with Canada to strengthen their laws.
    The second major source of meth comes from small local labs 
unaffiliated with major trafficking organizations. These labs 
have proliferated throughout the country, especially in rural 
areas. DEA reports that over 7,700 of the 8,000 clandestine 
labs seized in 2001 were these smaller labs. The total amount 
of meth actually supplied by these labs is relatively small. 
The environmental damage and the health hazard they create, 
however, make them serious problems for local communities.
    For example, every single county in my district, especially 
the more rural counties, have seen this proliferation of small 
meth labs, and we plan to hold a hearing in northeast Indiana 
later this year.
    The Federal Government has already taken significant and 
effective action against the meth problem. The widespread 
growth of the problem, however, has spurred calls for further 
action. Most proposals have focused on the need to assist local 
law enforcement in finding and cleaning up the numerous small 
meth labs.
    A well-balanced approach, however, will have to address 
both the smaller labs and the major traffickers. At the Federal 
level, DEA and other agencies will continue to take the lead in 
disrupting and dismantling the organizations behind the super 
labs, in close cooperation with such State agencies as the 
California Bureau of Narcotics Enforcement, which has also 
played a leading and significant role in this area. These 
agencies need support and assistance, however, from additional 
State and local law enforcement to be truly effective.
    The High Intensity Drug Trafficking Areas [HIDTA], Program 
is designed to foster this kind of cooperation against drug 
trafficking. HIDTA-funded initiatives have already targeted 
many of the major super labs and the distribution networks 
affiliated with them. This should continue to be a priority for 
the HIDTA program within the context of other national 
trafficking programs.
    Although the smaller labs do not have the same national 
impact on meth supply as the super labs, the damage they cause 
is more widespread. It is a significant concern that requires 
careful attention. The Federal Government must continue to 
explore how best to assist States and localities in finding and 
cleaning up these dangerous sites. Because the purpose of the 
HIDTA program is to reduce the national supply of drugs and not 
to deal primarily with local problems, a more inclusive and 
locally focused program is needed.
    One proposal offered by our colleagues, Congressman Doug 
Ose, a member of this subcommittee, provides for a broad range 
of initiatives aimed at the meth problem. Among other things, 
H.R. 834 would provide funds to help States and localities find 
and clean up meth labs, including expanding under the Community 
Oriented Policing Services [COPS], grant program.
    Additionally, resources for treatment and prevention at the 
local level are also made available. I'm a cosponsor of this 
bill, and I strongly support it.
    [The text of H.R. 834 follows:]

    [GRAPHIC] [TIFF OMITTED] T1423.001
    
    [GRAPHIC] [TIFF OMITTED] T1423.002
    
    [GRAPHIC] [TIFF OMITTED] T1423.003
    
    [GRAPHIC] [TIFF OMITTED] T1423.004
    
    [GRAPHIC] [TIFF OMITTED] T1423.005
    
    [GRAPHIC] [TIFF OMITTED] T1423.006
    
    [GRAPHIC] [TIFF OMITTED] T1423.007
    
    [GRAPHIC] [TIFF OMITTED] T1423.008
    
    [GRAPHIC] [TIFF OMITTED] T1423.009
    
    [GRAPHIC] [TIFF OMITTED] T1423.010
    
    [GRAPHIC] [TIFF OMITTED] T1423.011
    
    [GRAPHIC] [TIFF OMITTED] T1423.012
    
    [GRAPHIC] [TIFF OMITTED] T1423.013
    
    [GRAPHIC] [TIFF OMITTED] T1423.014
    
    [GRAPHIC] [TIFF OMITTED] T1423.015
    
    [GRAPHIC] [TIFF OMITTED] T1423.016
    
    [GRAPHIC] [TIFF OMITTED] T1423.017
    
    Mr. Souder. This hearing will address potential solutions 
to the difficult issues surrounding the meth problem.
    I am pleased to welcome two of my colleagues, Congressman 
John Boozman of Arkansas, and Congressman Ed Case of Hawaii, 
both of whom have taken a strong leadership role in the fight 
against meth.
    To help us further discuss the Federal Government's 
response, we are also pleased to be joined today by Mr. Roger 
Guevara, Chief of Operations for the Drug Enforcement Agency 
[DEA]; Mr. John Horton, Associate Deputy Director of State and 
Local Affairs at the Office of National Drug Control Policy.
    At the same time, it is also important for us to hear from 
the State and local agencies forced to fight on the front lines 
against meth and other illegal drugs. We welcome captain 
William Kelly, Commander of the Narcotics Division of the 
Sacramento County Sheriff's Department; Chief Brian Martinek of 
the Vancouver, Washington Police Department; and Sheriff Garry 
Lucas of the Clark County, Washington Sheriff's Office.
    Mr. Souder. We thank everyone for taking time to join us 
this morning and look forward to your testimony. And I also 
want to say we have two witnesses here from Washington, because 
Congressman Baird has been an aggressive leader in putting 
together the Meth Caucus and working with us. We had a hearing 
a couple of years ago also, or maybe--I don't remember anymore, 
2 years ago I think, that we had worked with him in pulling 
together as well.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T1423.018
    
    [GRAPHIC] [TIFF OMITTED] T1423.019
    
    [GRAPHIC] [TIFF OMITTED] T1423.020
    
    [GRAPHIC] [TIFF OMITTED] T1423.021
    
    Mr. Souder. I'd like to yield to Congresswoman Sanchez if 
you have any opening statement.
    Ms. Sanchez. Thank you.
    I'd like to thank Chairman Souder and Ranking Member 
Cummings for their great leadership in calling this important 
hearing today. Methamphetamine abuse has been the dominant drug 
problem in California for a long time and it has become a 
substantial drug problem in other sections of the West and 
Southwest as well. There are indications that its use is 
spreading to other areas of the country, including both rural 
and urban sections of the South and Midwest.
    Methamphetamine is now a nationwide problem. In the year 
2000, 44 States reported meth lab seizures. In 2001 there were 
over 1,300 labs seized, and 208 of those were in L.A. County 
alone. Over 50 of these were super labs. These are labs that 
have the capability of 10 pounds or more of meth.
    Meth abuse is also on the rise. Nationwide seizures of meth 
labs have significantly increased, from 263 labs in 1994 to 
8,462 labs in 2000.
    Traditionally associated with white male blue collar 
workers, meth has spread to more diverse population groups that 
change overtime and differ by geographic area. Most recently it 
has become the drug of choice by this Nation's children. 
Methamphetamine abuse is claiming younger victims and 
destroying families. In 1999 meth use among youth nationwide 
included 3.2 percent of 8th graders, 4.6 percent of 10th 
graders and 4.7 percent of 12th graders.
    Meth is not usually sold and bought on the streets like 
many of the other known illicit drugs. It is a little more 
pernicious. Users obtain their supplies of meth from friends 
and acquaintances. It is typically a more closed or hidden 
sale, prearranged by networking with those who produce the 
drug. Often it is sold by invitation only at all-night 
warehouse parties, or ``raves.'' Most alarming is the emerging 
evidence that methamphetamine are being administered 
increasingly via the intravenous route. Injecting this drug 
puts the user at increased risk of contracting HIV and AIDS, 
hepatitis, and other infectious diseases.
    We need to find a more effective way to curb the use of 
this drug and to stamp it out ultimately altogether. Much of 
the success will depend on support from Congress and our local 
law enforcement officers.
    Again, I want to thank the chairman and ranking member for 
having this hearing. I would also like to welcome and thank 
each of the witnesses for being here today to discuss this 
important topic, and we really look forward to your testimony. 
I yield back.
    [The prepared statement of Hon. Linda T. Sanchez follows:]

    [GRAPHIC] [TIFF OMITTED] T1423.022
    
    [GRAPHIC] [TIFF OMITTED] T1423.023
    
    [GRAPHIC] [TIFF OMITTED] T1423.024
    
    Mr. Souder. Thank you.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record, that any answers to written questions provided by the 
witnesses also be included in the record. Without objection, it 
is so ordered.
    I also ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members and the witnesses 
may be included in the hearing record, that all Members be 
permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    Our first panel is composed of our colleagues, 
Representative Boozman and Representative Case. This committee 
usually asks witnesses to testify under oath. By tradition, we 
do not administer an oath to Members of Congress because we 
take the oath when we are first sworn in, so it is covered in 
committee hearings. So you'll each be recognized for 5 minutes.
    So, Congressman Boozman, welcome, and we'll start with your 
statement.

 STATEMENT OF HON. JOHN BOOZMAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARKANSAS

    Mr. Boozman. Thank you, Chairman Souder. Chairman Souder, 
Ranking Member Cummings and members of the committee, I want to 
thank you for allowing me to testify this morning on a very 
important issue to Arkansas, methamphetamine. Methamphetamine 
poses problems of epidemic proportions across the country. My 
own State of Arkansas has the highest number of meth lab 
seizures per capita in the Nation. Arkansas has become a 
crossroads for meth production and trafficking, making meth one 
of the top law enforcement problems in the State.
    As a father of three daughters and a former member of the 
Rogers School Board, I am very aware of our Nation's drug 
problems. Years ago the problem seemed like something that was 
far from the small towns and communities of my State. Today 
that has all changed. The National Center for Addiction and 
Drug Abuse has reported that the rate of drug abuse among teens 
in rural America is now higher than in the Nation's large urban 
centers. At the same time, mid-sized cities and rural areas are 
less equipped to deal with the consequences of drug use. In a 
survey of the counties in my district, law enforcement reported 
that an estimated 75 percent of all crime is related to 
methamphetamine.
    As we all know, drug use is not a victimless crime. 
Yesterday I heard a report of an 18-year-old girl who turned 
her parents in for cooking meth in their home. Her parents had 
been cooking meth for years, and yet she waited until her 18th 
birthday to turn her parents in, because she wanted to be in a 
position to have the ability to take custody of her younger 
brother and sister.
    In another case, police raided a heavily armed meth lab and 
discovered that a baby living in the drug trailer had been left 
alone and eaten the drugs left strewn about the trailer. I can 
tell you countless stories like these, because meth is an 
incredibly powerful drug and very destructive. Meth is a long-
lasting drug that produces the high for 9 to 12 hours. Persons 
using meth frequently stay awake for several days. The sleep 
deprivation, combined with the effects of the drug causes meth-
induced psychosis that in turn leads to violence, paranoia, 
aggressive behavior, sexual abuse and drug abuse to children.
    There is a proven correlation between the use of meth and 
domestic violence. So not only is this a destructive drug to 
the user, but the ultimate results are spouses being battered 
and abused and young children being neglected and sometimes 
abandoned altogether.
    The destruction this drug causes is far-reaching, and we 
have to remember that the rural areas where meth use is most 
predominant do not have the means to deal with the problem. 
There is no doubt that additional resources are needed to 
combat the damage that is being done.
    This really becomes clear when you look at the Arkansas 
statistics on meth labs. In 1994, a total of 6 meth labs were 
seized in Arkansas. In 2002, 955 labs were seized, and today 
law enforcement officials have busted 25 percent more labs than 
they did at this time last year. You can clearly see that the 
meth problem in Arkansas has escalated and truly reached 
epidemic proportions.
    So I guess the question is, what can we do to help? After 
talking to everyone in my district, from the State police and 
local sheriffs to county judges, drug courts, prosecutors, 
treatment facilities, I believe we must facilitate a balanced 
approach to combating the problem of meth. This approach must 
include demand reduction, prevention, enforcement and 
treatment. We must educate the public, reduce the availability 
of ingredients, provide the resources for law enforcement, and 
then make the effort to fully rehabilitate the addicts.
    This is why I'm a proud cosponsor of H.R. 834, the Clean-Up 
Meth Act. This bill, as the chairman mentioned, authorizes 
grants for educational purposes, provides law enforcement with 
grants for training and equipment acquisition, and it also 
authorizes grants for treatment. I'm pleased that Mr. Ose's 
legislation takes a balanced approach in combating such a broad 
and difficult problem.
    Mr. Chairman, I appreciate this opportunity to speak for 
the Third District of Arkansas and give you a brief glance of 
the magnitude of the problem, and I give my greatest thanks to 
all the officers, agents, prosecutors, judges, and counselors 
who are on the front lines fighting against meth today. Thank 
you.
    Mr. Souder. Thank you for your testimony.
    [The prepared statement of Hon. John Boozman follows:]

    [GRAPHIC] [TIFF OMITTED] T1423.025
    
    [GRAPHIC] [TIFF OMITTED] T1423.026
    
    Mr. Souder. Congressman Case.

 STATEMENT OF HON. ED CASE, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF HAWAII

    Mr. Case. Chair Souder, members of this subcommittee, good 
morning and ``Aloha.'' Before I go on, Chair, I think it's 
appropriate to wish you a happy birthday if I'm not mistaken.
    Mr. Souder. Once we're past 50, though, we don't really----
    Mr. Case. I have that problem myself, so I'm not saying 
anything about when you were born, just that today is your day.
    Chair, you have my written testimony, and I also asked 
members of my community throughout Hawaii to comment. Members 
that are on the front lines, they are submitting testimony, and 
I'd like to have this committee's consent both to insert my 
written testimony in the record as well as theirs, so long as 
it is received by the committee's deadline.
    Mr. Souder. Without objection, so ordered.
    Mr. Case. Thank you very much, Mr. Chair. Mr. Chair and 
members, my Hawaii and the communities that I represent, which 
are primarily as you've already noted the rural communities of 
my State, are at war; and the war is against methamphetamine. 
In Hawaii more particularly, this war is against the synthetic 
crystallized form of methamphetamine which is almost 90 percent 
pure, which is also known as ice.
    The statistics in Hawaii, like those in Arkansas and across 
the rest of the country, are really quite chilling. In Hawaii 
now, we now have the highest rate of adults who have tried ice 
in some form. In the last 2 years we have seen deaths 
associated with ice use almost double. In the last couple of 
years, we have seen the rate of homicide associated with ice 
use go up to 40 to 50 percent by some calculations, and as my 
colleague has already noted, it is a major ingredient of 
domestic abuse. We estimate in Hawaii up to 90 percent now of 
all child abuse cases are somehow related to ice.
    We have seen an increase in violent and property crime 
associated with ice. This is going up. We've had several high-
profile violent crimes just recently in Hawaii that are ice-
related. We have seen whole families and communities torn 
apart. Each one of us in our work and our communities knows of 
a family that has seen an incredible market deterioration in 
this family structure because one or more of it members have 
become addicted to ice.
    I think the reasons are not really rocket science to any of 
us. First of all in the big picture, wherever economies are 
weak and opportunities are lacking, chances are that some form 
of drug abuse will take hold. So all of our efforts--and we're 
all committed to that in this Congress to improve our economy 
and to provide opportunity--are also going to have an impact on 
drug abuse and ice abuse in particular.
    Like any other drug, but particularly with ice, anything we 
can do to get to people before they start to use ice is a 
valuable, incredibly important ingredient, and it's incredibly 
important as we see the incidence of first-time drug users 
really go down. We now have significant numbers, chilling 
numbers of sixth, seventh and eighth graders that have had 
exposure to ice and may be using it. So when we can provide 
education to them before they start using it, that's valuable.
    Law enforcement is so important, to be out there on the 
front lines in really the Federal side of things going after 
the dealers, a coordinated law enforcement. So your comments on 
the High-Intensity Drug Trafficking Area initiative are 
particularly relevant.
    And like my colleague, I believe in rehabilitation. For too 
long many ice users, frankly, have been written off in favor of 
the other side of the equation. We can't do that. If we don't 
rehabilitate, they go out, they continue to use. And I think 
the coordination is key. We have so many ingredients that need 
to go into the fight against ice, whether it's law enforcement 
or Federal, State, local or law enforcement, social services, 
nonprofits, all the way across the board, everybody wants to 
help. They need the coordination, and that is really what we 
need most of. Where I think the Federal Government can really 
contribute is through law enforcement, No. 1; and No. 2, 
coordination, helping communities coordinate.
    As chilling as this is in Hawaii, we've also seen some 
incredibly encouraging signs--and I pass along to this 
committee and I think that they are not unlike what is going on 
in other communities--first of all, we have seen good education 
down at the school level. Several great programs: No Hope and 
Dope, which many of our law enforcement communities are so 
personally vested in, to other very unique examples; such as in 
my own State of Hawaii where a very popular comedian by the 
name of Frank DeLima has a way of communicating with kids that 
perhaps none of us can. And he goes into the schools and says 
in a very comedic way, hey, you can't do this. Now, that kind 
of stuff is unusual, but it works.
    I've already talked about Federal coordination. We're all 
familiar with Weed and Seed. The Weed and Seed program is a 
Federal effort to coordinate whole communities against drug 
abuse. In Hawaii we have taken high-crime communities where 
we've had incredible drug abuse, and we've taken, with our U.S. 
attorneys, the Weed and Seed program and applied them. That 
program works. If we can expand that, it will be good.
    Finally, community involvement. My colleague talked about 
community involvement. I'm convinced that when communities 
stand up and say no, whole communities say no, that is the most 
effective thing that we can do. And anything we can do to 
facilitate whole communities to say we're not going to take 
this anymore is effective; because law enforcement can do it up 
to a point, but if communities are not willing to pick up and 
run with the ball, chances are it won't be lasting. We've seen 
incredible results from my communities, places like Kahaluu on 
Oahu, Kauai, Maui. And just 2 days ago on my home big island, 
we saw 1,000 people out sign-waving on one particular day, 
communities around that island basically increasing public 
awareness. These things work.
    So I concur with my colleague on where we need to go from 
here. The Federal Government can help with basic coordination 
of all of these efforts. The Federal Government certainly needs 
to help with the basics of law enforcement. This is a national 
and international problem, and State and local law enforcement 
is not able to coordinate and provide a united front against 
all of the ramifications of ice manufacture and use.
    And finally, rehabilitation is very important. I support 
representative Ose's bill as well. I'm a cosponsor as well. I 
support the great work of this subcommittee and all of us in 
Congress. I think we can do this job if we just continue to 
turn to it, and I thank this subcommittee's attention to this 
really important issue and thank you for the opportunity to 
share some thoughts.
    [The prepared statement of Hon. Ed Case follows:]

    [GRAPHIC] [TIFF OMITTED] T1423.027
    
    [GRAPHIC] [TIFF OMITTED] T1423.028
    
    Mr. Souder. Thank you.
    I'm going to yield next to Mr. Ose, who we've been 
referring to. He's been a leader in the meth issue and has the 
bill, and is one of the more senior members of this committee, 
and had another hearing scheduled today, and I appreciate him 
for leaving the chair a little bit to come over here. And if 
you'd like an opening statement, and to begin the questions as 
well.
    Mr. Ose. Well, thank you, Mr. Chairman. I am pleased to be 
here. I do have another hearing, so I'm going to be running 
back and forth. I want to submit my statement for the record.
    I do want to recognize Captain William Kelly who is the 
Commander of the Narcotics Division of the Sacramento Sheriff's 
Department. He'll be testifying in our third panel.
    This is an issue I think, as Congressman Case highlighted, 
where those of us in our respective communities who have 
positions of leadership, as Mr. Cummings has done in Baltimore 
and so many others across the country, those of us in positions 
of elected leadership can say this drug abuse problem is bad, 
it is something we need to speak out on, and we need to 
confront it directly. It is killing our young people and 
destroying our neighborhoods. As Congressman Case said, that is 
an appropriate purpose for which we can each use our offices.
    And I do want to share with you that the Cleanup Meth Act, 
H.R. 834, now has 113 cosponsors. Virtually everybody on your 
subcommittee, Mr. Chairman, has signed on, and obviously a host 
of others. We hope to move it through Mr. Gillmor's 
subcommittee over on Energy and Commerce Committee next, and 
then just proceed accordingly. The regrettable part is that 
there are referrals to an additional six full committees of the 
House, and we'll need everybody pulling in the same direction 
to make this thing work.
    You know, when I came to Congress before I was even sworn 
in, Chairman Burton, who sat in the full committee's chair at 
that time, my first introduction was to my plaintive request of 
him to put me on this subcommittee. This is the one 
subcommittee I asked to be on and which I have sustained my 
membership on accordingly.
    Mr. Chairman, your work on this has been noted. I'm pleased 
to be here. I'm pleased to be here, because this issue is so 
important. And today is your birthday. So happy birthday, Mr. 
Chairman.
    Mr. Souder. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I'm 
very pleased that you have called this hearing. 
Methamphetamine, or meth, is one of the major drug threats 
facing our Nation today. A powerful stimulant that affects the 
central nervous system, meth is derived from amphetamine, a 
compound which is contained in over-the-counter nasal 
decongestants and bronchial inhalers and also used in certain 
medical applications including weight loss treatments. Meth is 
a drug that can be smoked, snorted, orally ingested or 
injected, and is known by a variety of street names depending 
upon the form in which it is used. Meth often comes in a powder 
form and resembles granulated crystals and in a rock form known 
as ``ice,'' which is preferred by those who smoke the drug.
    Ingesting meth causes the release of high levels of 
dopamine into the section of the brain that controls the 
feeling of pleasure. The result is an intense rush and a high 
that can last up to 12 hours. The side effects of meth use are 
dangerous and sometimes even fatal. They include convulsions, 
high body temperature, stroke, cardiac arrhythmia, stomach 
cramps and shaking. Meth can be addictive, and abuse of the 
drug can cause violent behavior, anxiety, insomnia, in addition 
to psychotic effects such as paranoia, hallucinations, mood 
swings and delusions.
    Persistent users develop a tolerance for the drug that 
requires a user to take increasing amounts to achieve the 
desired effects. As a result, such users can suffer damage to 
the dopamine-producing cells of the brain. Unlike drugs such as 
cocaine and heroin, which are produced from plants entirely out 
of the United States, methamphetamine can be manufactured using 
ingredients purchased in U.S. retail stores. Most of the 
production of U.S. consuming methamphetamine is domestic, 
perhaps as much as 75 percent coming from labs in California.
    U.S. production today occurs in both super labs, which 
produce unprecedented amounts of high-purity methamphetamine, 
and clandestine labs small enough to be found in apartments, 
motel rooms, rented storage spaces and trucks.
    Many clandestine labs produce as little as 10 pounds of 
meth a year, but their impact on the environment and the cost 
of cleaning up these sites can be huge. Collectively, 
clandestine labs produce over 20 metric tons of toxic waste 
each year, and individual labs can cost from a few thousand to 
more than $100,000 to clean up depending upon their size. 
Because the ingredients are not only toxic but extremely 
volatile in combination, labs also pose a serious danger to 
people who may live in the immediate vicinity of the activity, 
including the children of small-scale manufacturers.
    Drug Enforcement Agency estimates show that meth production 
and trafficking are rampant in the West and Midwest regions of 
our country. Traditionally, meth has been concentrated in the 
Western States, especially California, Arizona, Utah.
    In recent years the Midwest region has experienced 
tremendous growth in both trafficking and production, and that 
activity is spreading into the southeast and northeast regions. 
The majority of operations in the western region are controlled 
by Mexican drug trafficking organizations based along the 
California-Arizona border.
    Meth abuse has not yet become a major problem in the 
communities of Baltimore and Howard Counties that I represent 
in Maryland. Heroin, following in the footsteps of a 
devastating crack-cocaine epidemic, is the primary drug threat 
in my congressional district; but the rapid spread of meth 
production, trafficking, and abuse in the United States 
underscores the fact that America's drug problem affects all 
parts of this Nation, as well as the sad but undeniable truth 
that no community is immune to the introduction of a dangerous 
new drug threat.
    Today's hearing offers an opportunity to hear from two of 
our colleagues, and law enforcement officials at the Federal, 
State, and local levels, concerning the challenges faced by 
communities affected by meth and methamphetamine crime, efforts 
to combat the meth problem and the additional resources that 
Congress should consider providing to assist those efforts.
    I thank you, Mr. Chairman, for continuing to shine a light 
on the issue in this subcommittee. I look forward to hearing 
from our--the testimony of our witnesses, and I want to thank 
all the Members of Congress who have brought this to our 
attention.
    I want to thank Mr. Ose, certainly Mr. Boozman and Mr. 
Case, because we in this subcommittee take this very seriously. 
We have seen our communities harmed tremendously. We have 
traveled throughout this country and seen the harm that drugs 
have done to so many people. We have seen the way that drugs 
have stomped out not only dreams but lives. And so it is with 
great pleasure that we work on this problem. We're sorry we 
have to work on it, but we're going to do everything that we 
can to work with you all to try to resolve this issue.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T1423.029

[GRAPHIC] [TIFF OMITTED] T1423.030

[GRAPHIC] [TIFF OMITTED] T1423.031

    Mr. Souder. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. May I thank you, Mr. 
Chairman, for this hearing, and may I thank Mr. Ose for his 
leadership on this issue, and our colleagues for the strong 
leadership and attention they are giving to this issue.
    I appreciate that we are moving now on a drug which, as my 
good colleague from Baltimore says, is not as prevalent in this 
particular region. But I hope we have learned the lesson about 
the kind of country we live in, with porous borders. This drug 
is particularly dangerous, because you can make it in the 
United States in makeshift laboratories so easily.
    When we speak about heroin and crack, we are often dealing 
with supply and demand and suppliers from outside the country 
and having arguments over who is to blame for demand or the 
suppliers. If there wasn't any other country in the world but 
the United States, we'd have this problem, because with very 
little expertise you can produce meth right here. And therefore 
the danger to our children, to young people who seem to be 
drawn to methamphetamine, is particularly noteworthy. The 
notion that motorcycle gangs once were the suppliers and that 
now it has already moved to suburban communities ought to tell 
us all we need to know. The notion that we associate meth with 
the West or certain parts of the Midwest ought to tell those in 
the East that it can't be long contained there.
    So your work to assist localities to focus on this issue 
now, to get rid of these meth labs, is very much appreciated in 
this region where this is not a major problem. And I thank you 
very much for your leadership, Mr. Chairman.
    Mr. Souder. Thank you. Mr. Ruppersberger.
    Mr. Ruppersberger. First, thank you for having the hearing. 
We all know the issues of having methamphetamine. I'm looking 
forward to the testimony.
    Mr. Boozman and Mr. Case, I recently had a conversation 
with a member of the Baltimore County Police Department drug 
unit, and, again, as has been stated, in the Baltimore area, 
our problems are more in the heroin/cocaine area, but we have 
had some incidents of methamphetamine labs. Just about a month 
or so ago in another county, there was a drug bust involving a 
lab.
    I think a lot of the issue can be in the area of education 
also. Many misinformed individuals use methamphetamine drugs 
for what they consider to be practical purposes. Some users, 
mainly teenage girls, take methamphetamine to lose weight. 
Others use it to combat fatigue. And it is pivotal to the 
welfare of these people that they receive proper education on 
the effects of methamphetamine. It directly threatens the 
health of not only the users of this substance but also the 
residents of the communities where it is produced. It is 
imperative that national programs targeting the trafficking 
networks and production facilities of major meth manufacturers 
are adequately funded.
    In addition, Congress must reinforce its commitment to 
combating the drugs, combating the domestic narcotics trade at 
the local level, by fully funding the COPS grant program and 
similar initiatives.
    Thank you.
    Mr. Souder. I'm going to ask a few questions and then we'll 
see whether some of the others have questions. Let me thank you 
both for your leadership on both sides of the aisle. As you can 
see from this subcommittee, this is a very bipartisan 
subcommittee. We've moved the ONDCP bill through, which is 
pending coming to the floor in a unanimous way. We accommodate 
each other, because this needs to be a bipartisan effort as we 
tackle narcotics problems.
    Unfortunately on the Republican side, I have seven 
subcommittee chairs, I think, as members of my subcommittee, 
because it is highly sought after. We're all the time having 
other hearings, but they've been very aggressive in support of 
these different things, and will be in and out today as well.
    There were a couple of things that kind of jumped out from 
your testimony when you both did so earlier. One, Mr. Boozman, 
you said that 75 percent of all crime, an estimate from your 
local law enforcement, is related to methamphetamine. Sometimes 
we hear that in relationship to all narcotics, but I've never 
heard a figure that high in any particular area related to just 
meth.
    Mr. Boozman. Yes. We surveyed--really called everybody we 
could think of, and that was the figure that kept coming up, 
which really shocked me.
    The other thing that shocked me was the fact that, our labs 
in all of Arkansas were 6 labs in 1994, 955 labs today--or last 
year. And then growing at a 25 percent increase this year. So 
what we're finding is that people that--once they become 
addicted to meth tend to beat their families. They become 
very--they do a lot of things that are antisocial, causing 
other crime. And so that really is for real, according to the 
folks that we're talking to. That is a for-real statement.
    Mr. Souder. One of the things we're trying to do within our 
subcommittee, among other challenges we're trying to do in the 
next year, is come up with individual faces and names with some 
cases. And if your law enforcement agency would help us with 
the meth where we--it is just like after September 11. It was 
so much more powerful when you could see the real people who 
lost their lives because of terrorism. And we have 30,000 in 
narcotics in the United States, and to call attention to a 
problem like meth, the individual stories, individual cases, 
same as Mr. Case in Hawaii; if you could help us with that, I 
think we can get more support for the efforts we need for the 
adequate funding levels that we need on these type of programs.
    Also in talking to some of the judges in Indiana, one of 
the things they said is we tend to think of it related to 
violent crime and not necessarily--I wanted to ask Mr. Case in 
just a minute about the 90 percent of child abuse. We don't 
necessarily think of--my understanding is because it has such 
an impact on people's ability to hold a job, that child support 
and divorce and even in the civil courts they are seeing it, 
not just in the criminal courts, as a huge problem. Have you 
heard that in Arkansas as well?
    Mr. Boozman. Well, I think you're right. You know, I gave 
the illustration of the 18-year-old, that both of her parents 
were using, you know, and she waited till she turned 18 so she 
could take custody of her siblings who she was taking care of 
prior to that time. So it really is very devastating to the 
families, you. And that family, they were just blessed to have 
somebody like that was kind of the adult in the family. But you 
can see how that translates to other situations where you don't 
have a strong--and so very much, so our shelters are full of 
kids, not only the--I mentioned the spousal abuse but also the 
neglect that comes from the children. They just don't care 
about them once they get really into this thing.
    Mr. Souder. In the last cycle we focused heavily--did a 
series of border hearings around the United States and did a 
report. We've clearly--because of ONDCP reauthorization coming 
through this committee--have focused a lot on the height of 
programs and a number of things related to that, the national 
lab campaign, focused a lot on Colombia, but we have--while 
we've had regular hearings, we're going to focus more intensely 
in the next cycle on--next year on both treatment and 
prevention programs.
    And, Mr. Case, you alluded to several specifics in 
prevention programs. I would be interested also in treatment 
programs if for the written record and for potential future 
hearings that we're working on, if there is anything in 
particular they are doing on meth in the Drug-Free Schools 
programs or in the drug treatment programs that is targeted 
around that.
    Often we tend to have general programs or different 
approaches that work very well, PRIDE and DARE, and different 
regionalized approaches, but we're also looking for examples. 
And the same would be true in Arkansas, where a particular 
problem is greater, of a program aimed especially at that 
subgroup that is targeted toward the young people who are 
heavily at risk. Often I feel our programs--and that is one of 
the reasons we've had mixed success around the country in some 
prevention and treatment programs, particularly in prevention, 
is they are more generic and they aren't necessarily targeted 
for the nuances of different markets around the United States. 
That has been particularly true in urban areas where the 
programs may not be targeted to the neighborhoods or the 
different subgroups, but it also can be true in rural areas and 
around drugs. And I wondered if you had any comments about that 
and could supply us some particulars from your home State.
    Mr. Case. Well, first of all, I think you're following 
exactly the right train of thought and analysis, and I will 
submit--and some of the written testimony that I already have 
from the people in my State goes directly to the questions that 
you have, that we have an outstanding U.S. attorney, Ed Kub, 
who has very much taken this on. We have great prosecutors such 
as Peter Carlisle on the island of Oahu who has really taken 
this on. We have incredible people involved in all aspects of 
the attack on ice.
    The specific question that you asked I think is entirely 
relevant. The programs that work best, I think we all know 
this, but perhaps sometimes it gets lost in the Federal 
Government/State government shuffle, is that programs that are 
targeted to the listener are the programs that work best; and 
so you can't have a one-size-fits-all program. You have to have 
a program that has sufficient flexibility to be--to adjust to 
the local--to the local potential, as you say, at-risk person.
    In Hawaii, as an example in my rural areas, we have vast 
differences in terms of our population constituencies. We have 
ethnic differences. We have immigrant communities versus 
nonimmigrant. We have lower income, higher income, and each one 
of those, it seems to me, takes a tailored approach; and that 
is why I wanted to talk about the program that, again, Mr. 
Frank DeLima had come up with, because he's somebody that 
obviously relates. That's the whole point: Can you relate? If 
you just get in there and send somebody in from Washington and 
say, ``Don't use ice,'' it ain't going to work. Get somebody 
that they know into the schools that they relate to. It does 
work.
    I can give you those examples and I will find those 
examples for you. But in concept, I don't think it's much 
different than programs that are working very well in the rest 
of the country on prevention. I think, just to repeat it, the 
frightening thing about it is that those programs have to move 
farther and farther down in the schools at this point, because 
basically ice is chasing our kids down farther and farther. So 
you've got to get to them earlier and earlier. So those 
programs have to be also age-appropriate.
    Mr. Souder. Ms. Sanchez, do you have any questions of the 
witnesses?
    Ms. Sanchez. No questions at this time. Thank you.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Yes.
    Congressman Boozman, I was just looking at this. This is a 
very interesting statement, and the thing about--the statement 
about the 18-year-old girl turning her parents in, I was just 
wondering--and then I'm looking at this--these numbers with 
regard to the meth labs. That is incredible. I mean, the 
escalation.
    Mr. Boozman. Yes.
    Mr. Cummings. So your policemen must be going crazy. I 
mean, it's just got to be--it's got to put a tremendous burden 
on the police force when you see these kind of numbers.
    Mr. Boozman. It really does; because the other problem with 
meth is not only, you know, do you have to provide the 
resources, you catch the people, but then you've got to deal 
with the lab. And so that, in many cases, costs thousands of 
dollars in cleanup. You do a good job, you bust the lab, and 
then the county--the local municipality's faced with the 
cleanup cost. And so it is a tremendous burden, it really is.
    Mr. Cummings. Is there a link between when they catch these 
folks and they convict them, is it normal that part of the 
penalty is the cleanup of these places? I'm just curious.
    Mr. Boozman. Well, it is. And yet a lot of these little 
labs, you know, where they're cooking just for them and their 
friends, it's not like busting a big coke dealer, you know, 
where you go in and there's cash all over the place. A lot of 
these are just cooking for themselves and their acquaintances, 
and so they're living in poverty. It's not the typical 
situation that you'd find, so it's much harder to go demand 
assets to pay for the cleanup.
    Mr. Cummings. And that was going to be my next question. Do 
you find that--I was just wondering what percentage of these 
were--of all of these labs were the mom-and-pop own-use kind of 
shops.
    Mr. Boozman. I couldn't tell you, you know, we're just that 
as opposed to guys that were really, or girls, that were 
getting after it, the super labs, you know, that sort of thing. 
I'd say the majority of them are the mom and pops, though.
    Mr. Cummings. To both of you, one of the things that we 
have confronted in this committee--and it's a very difficult 
question--is the question of when you've got people using and 
then you--do you treat them, or do you arrest them? In other 
words, when I went to--and I tell this story everywhere I go, 
because it just hit me so hard. When I went to Mr. Souder's 
district, Fort Wayne, and I listened to the drug court judges 
talk about how they wanted to be in a position to rehabilitate 
people and help them get back on track, but there were so many 
penalties that it actually seemed to work against getting 
people back on track.
    Are you following me? And I'm just wondering what are you 
all's feelings on that? I mean, we've got to--it's a difficult 
question, because you want to make sure you do things that are 
preventive. You want to punish those who may be selling. At the 
same time, I think you can have some communities where you may 
have maybe 5 percent of your young people basically saddled 
with a record, and that in and of itself handicaps them and may 
cause them to go back to do something that is in the area of 
drugs, and I just was curious about what you all's feelings 
were on that.
    Mr. Case. Well, I think, first of all, let's distinguish 
between manufacturers, dealers and users. The manufacturers, I 
just don't think you have any option but to come down pretty 
heavy on them, because if you can get it there, the chances are 
you can get it before it goes out too far. It is a little 
problematic when you're dealing with a drug that is a 
combination of super labs and mom-and-pop operations. In Hawaii 
it appears to be a mom-and-pop operation.
    Now, those things can't go unnoticed in a community. 
Communities usually know. That is why I really want to come 
back to my comment earlier, which is if we can get communities 
involved, they will start to get rid of ice themselves. That is 
what is happening in parts of Hawaii. That is important for us 
to support.
    On users, I think really--and I've been through some 
testimony in our State legislature in Hawaii over drug court. 
The users will tell you that they need to be arrested, they 
need to be brought into the system. If you simply take them out 
and you offer the care of rehabilitation, without the stick of 
going to prison, it is not going to work. You really need to 
have both options available. You need to get them into the 
criminal justice system, but then have the ability within that 
system for the judges to run great programs like drug court. 
Drug court works. And to get them rehabilitated. But if they 
don't tow the line, there is a consequence to that.
    And this isn't me talking, this isn't law enforcement 
talking, it is the people that are using that are talking, 
because they know how addictive this drug is and how 
destructive it is to them. They need that. So you really need 
them both.
    Mr. Boozman. I would agree totally. You know, the 
distinction between the person that is selling, you know, and 
that aspect of it as opposed to the person that is caught up 
into it, and we really don't do a very good job of just the 
user. I mean, there needs to be a penalty to pay and things, 
but at some point, you know, you need to help that person get 
on with their life. And, I mean, I've had parents come in and 
say, Look, you know, my daughter or my son is on drugs, you 
know, we want to do something. They want to do something, but 
truly, you know, in many instances there is just nothing 
available.
    We're not doing a very good job in that aspect in my part 
of the country anyway, and it is something that I agree with 
the struggle that you're going through. It is a tough problem.
    Mr. Cummings. Thank you.
    Mr. Souder. Ms. Norton, do you have any questions?
    I want to thank you both, encourage you to look at the 
community antidrug coalition programs, where we keep trying to 
fund those, and we're trying to sustain the ones that we've 
started, but I don't think too many of those have particularly 
focused on meth. And it would be interesting to see if you 
can--if you don't have one, to see if you can get it--is it the 
Drug Czar's Office that makes the final selections? Yes. And 
work with ONDCP to do that.
    Once again, thank you for your leadership and for coming 
today.
    Mr. Cummings. Mr. Chairman, may I say just one quick thing? 
Adding on to what the chairman just said, we in Baltimore, this 
community coalition bill, we started looking at who was getting 
those grants, and we discovered that here I am, the ranking 
member of the subcommittee, and no--hardly any coalitions in 
Baltimore had gotten grants. And so what we did, I took it upon 
myself to--using Mr. Souder's example, and I think Sandy 
Levin--and we began working with the Drug Czar's Office, and 
they literally sent people and the deputy into our district. I 
mean, she's been there three or four times to help organize our 
folks so that they can actually qualify for these grants, and I 
think this will--I don't know what is going to happen, but I 
know we were able to submit some very good grant proposals this 
time.
    But I too would encourage you to take advantage of that 
program. A lot of people don't even know about it. A lot of 
people in Congress don't know about it.
    Mr. Souder. Hawaii is farther than Baltimore, but you might 
be able to convince them to come.
    Mr. Case. We'll try to. Thank you very much.
    Mr. Souder. Thank you very much.
    If the second panel could come forward: Mr. Roger Guevara, 
Chief of Operations for DEA; Mr. John Horton, Associate Deputy 
Director for ONDCP. And if you'll remain standing.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both witnesses 
responded in the affirmative.
    Mr. Guevara, it's good to have you back, look forward to 
your testimony today. Go ahead.

   STATEMENTS OF ROGER E. GUEVARA, CHIEF OF OPERATIONS, DRUG 
   ENFORCEMENT ADMINISTRATION; AND JOHN C. HORTON, ASSOCIATE 
DEPUTY DIRECTOR FOR STATE AND LOCAL AFFAIRS, OFFICE OF NATIONAL 
                      DRUG CONTROL POLICY

    Mr. Guevara. Thank you, sir. I'm delighted to be back. And 
good morning to you, chairman, and Ranking Member Cummings, 
distinguished members of this subcommittee.
    First let me express my sincere appreciation for your 
ongoing support of this very important issue and allowing us to 
face this methamphetamine problem in America.
    It's also a privilege for me today to appear before you on 
this panel with John Horton of the ONDCP, an agency with which 
DEA has an outstanding relationship.
    Mr. Chairman, the rise and spread of methamphetamine 
traffic and abuse in America has created unique and difficult 
challenges for our country. In 2001, the National Household 
Survey on Drug Abuse reports that over 9 million Americans have 
tried methamphetamine on at least one occasion during their 
lifetime. Even more disturbing, in 2002 more than 2,000 
children were present during the seizure of clandestine 
laboratories; 22 of those children were injured, and 2 were 
killed.
    In 2002 the El Paso Intelligence Center reported the 
seizure of over 9,000 meth labs, of which 191 were super labs, 
those having the capacity to produce over 10 pounds of 
methamphetamine or more per production cycle.
    Unlike more traditional drugs of abuse such as heroin, 
cocaine and marijuana, methamphetamine presents some unusual 
challenges. First, it's a synthetic, relying on no harvested 
crops in its manufacture. Second, it has hit rural areas in the 
United States particularly hard, areas where resources to 
combat this drug are often the least available. And third, 
methamphetamine is a particularly intense stimulant, highly 
addictive and overwhelmingly dangerous. The combination of 
these factors require a multifaceted response.
    To attack this national crisis, DEA has taken a proactive 
and aggressive stance. Since 2000, DEA has dismantled or 
disrupted over 60 priority target methamphetamine 
organizations. In 2001, DEA offices across the country 
conducted 250 methamphetamine investigations reflecting 19 
percent of DEA's OCDETF cases. This year DEA has initiated 87 
methamphetamine OCDETF investigations which represent almost 25 
percent of DEA's OCDETF cases.
    As with many of DEA's cases, these meth investigations are 
being worked with our Federal, State and local law enforcement 
partners across the country.
    DEA estimates that Mexico-based organizations produce and 
distribute the majority of the methamphetamine in the United 
States. DEA intelligence and enforcement initiatives have 
focused on identifying, targeting, and dismantling the Mexican 
trafficking organizations based both in Mexico and in 
California. To combat these organizations, DEA looks not only 
toward the methamphetamine manufacturers and distributors, but 
also toward those groups who supply the precursor chemicals 
necessary for its production.
    One such example, Operation Mountain Express III, targeted 
individuals responsible for the smuggling of pseudoephedrine of 
Canadian origin into the United States with the intent of 
providing it to Mexican-based organizations operating super 
labs in the western United States.
    This operation resulted in arrest of 136 defendants, the 
seizure of over 35 tons of Canadian-origin pseudoephedrine, 179 
pounds of methamphetamine, six methamphetamine labs, and $4\1/
2\ million in assets.
    DEA is also focusing its investigative efforts to fight the 
spread of small toxic labs. While these labs produce a small 
percentage of the methamphetamine in the United States, they 
account for approximately 95 percent of the total lab seizures 
and create significant environmental problems.
    I'd like to draw your attention to the map to your right. 
That is a map of our United States, and the map illustrates the 
total of all methamphetamine clandestine laboratory incidents, 
including the labs that were seized, super labs, dump sites and 
locations where chemicals, glass, and equipment were located 
during calendar year 2002.
    Drawing your attention to California, for example, there 
were 1,724 labs seized in that State. Of that amount, 159 of 
those labs were super labs.
    In drawing your attention to the middle of our map as an 
example, the State of Missouri reported the seizure of 2,747 
small toxic labs.
    In addition to enforcement, DEA offers a robust training 
program for DEA special agents as well as State and local 
officers. DEA provides basic and advanced clandestine 
laboratory safety training for law enforcement officers at the 
DEA Clandestine Laboratory Training Facility in Quantico, VA. 
Since 1997, DEA has provided clandestine laboratory training 
and equipment to over 9,300 law enforcement officers across the 
country. And since 1999, DEA has trained approximately 69,000 
students in clandestine laboratory awareness.
    DEA also addresses the trafficking of methamphetamine 
through aggressive chemical programs, including voluntary, 
regulatory, and legislative means. And since 1999, DEA has 
increased its chemical investigations by approximately 400 
percent.
    And because chemicals associated with meth labs create 
environmental hazards and enormous cleanup costs, DEA is 
assisting State and local law enforcement in the cleanup of the 
hazardous waste that is generated.
    In conclusion, DEA recognizes that methamphetamine must be 
attacked on several fronts in order to effectively combat this 
epidemic. DEA will continue its aggressive enforcement and 
intelligence initiatives geared toward identifying, targeting, 
and dismantling these organizations who spread misery and false 
hope in our country.
    Thank you, Mr. Chairman. I will be happy to respond to any 
questions you may have.
    Mr. Souder. Thank you. And as I said earlier, your full 
statement will be inserted in the record and any additional 
materials that you want to submit.
    [The prepared statement of Mr. Guevara follows:]

    [GRAPHIC] [TIFF OMITTED] T1423.032
    
    [GRAPHIC] [TIFF OMITTED] T1423.033
    
    [GRAPHIC] [TIFF OMITTED] T1423.034
    
    [GRAPHIC] [TIFF OMITTED] T1423.035
    
    [GRAPHIC] [TIFF OMITTED] T1423.036
    
    [GRAPHIC] [TIFF OMITTED] T1423.037
    
    [GRAPHIC] [TIFF OMITTED] T1423.038
    
    [GRAPHIC] [TIFF OMITTED] T1423.039
    
    [GRAPHIC] [TIFF OMITTED] T1423.040
    
    [GRAPHIC] [TIFF OMITTED] T1423.041
    
    [GRAPHIC] [TIFF OMITTED] T1423.042
    
    [GRAPHIC] [TIFF OMITTED] T1423.043
    
    [GRAPHIC] [TIFF OMITTED] T1423.044
    
    [GRAPHIC] [TIFF OMITTED] T1423.045
    
    Mr. Souder. Mr. Horton.
    Mr. Horton. Chairman Souder, Ranking Member Cummings, and 
distinguished members of the subcommittee, I'm glad for the 
opportunity to be here today to testify about the problem of 
methamphetamine in America. I have prepared a written statement 
and would ask that it be entered into the record.
    We know what it takes to get drug use in this country to go 
down. We've seen declines in drug use before; for example, in 
the decline in cocaine use since 1979, and we know why it 
happened. We aim to replicate that success with all drugs, 
including methamphetamine.
    You know that our national drug control strategy focuses on 
reducing both supply and demand of drugs through prevention, 
treatment, and market disruption. I will briefly review how 
these priorities apply to methamphetamine.
    It is important at the outset to recognize that 
methamphetamine poses a different sort of threat to America 
than marijuana, cocaine or heroin. On the one hand, the 
nationwide use of methamphetamine in America is still lower 
than marijuana and cocaine, and we know that the dispersion of 
the geographical methamphetamine threat is not uniform. In the 
eastern part of our Nation, it remains comparatively low; but 
the threat is significantly higher, for example, in the West 
and the Midwest.
    Wherever meth does exist it causes problems that, frankly, 
just are not associated, at least to the same degree, with 
marijuana, cocaine or heroin--toxic remnants from meth labs, 
children neglected with burns and other serious injuries, and 
associated criminal activity like car and identity theft.
    The immediate harm caused by methamphetamine in our 
communities sometimes tempts us to focus only on short-term 
responses. Make no mistake, cleaning up meth labs, providing 
meth users with immediate treatment, and putting meth cooks in 
prison are all important, and law enforcement and our treatment 
providers have to do these things.
    But what the American people really want to know more than 
anything else about our anti-drug efforts is this: Are we 
actually making a long-term difference or are we just treading 
water? Our long-term goals are to slash demand, to prevent and 
punish import and production, and to stop the meth threat from 
moving east. For that reason, I want to briefly touch on some 
of the aspects of our long-term strategy.
    First, economics tell us that demand is the key driver of 
the market for methamphetamine, and that is why initiatives 
like Access to Recovery, the President's treatment initiative, 
are so important. While not focused on methamphetamine alone, 
we know that early intervention with methamphetamine users 
works. We know the drug courts, for example, help people 
recover from drug addiction. And stopping initiation of 
methamphetamine is an important component of our long-term 
approach to reducing methamphetamine demand.
    Second, by our best estimates, at least 80 percent and 
possibly up to 95 percent of the methamphetamine in this 
country is produced at super labs by Mexican criminal drug 
traffickers, both inside and outside of our borders. This isn't 
to say that the smaller labs you see in your home districts are 
not a threat, but I will get to that in a minute.
    My point is if we are going to cut the amount of 
methamphetamine circulating in our Nation, we have to go after 
the major drug trafficking organizations. Federal law 
enforcement, including the HIDTA program, DEA, U.S. attorneys 
and OCDETF, plays an important role in targeting major 
identifiable drug trafficking organizations that make and sell 
not only methamphetamine, but other drugs as well.
    That is why our priority targeting initiative is 
particularly relevant to methamphetamine. Drug trafficking 
organizations are market players. They are flexible, and they 
respond to market conditions, including the demand for 
methamphetamine. While we reduce demand, we have to disrupt the 
market and dismantle the organizations.
    Third, I recognize that despite producing no more than 20 
percent at our best estimates of methamphetamine in our Nation, 
the small toxic labs are in fact a significant threat to the 
communities in which they are found and they have both short 
and long-term impacts.
    Somewhere in the range of 96 percent of all methamphetamine 
labs in America are discovered, investigated and processed by 
our State and local law enforcement agencies. That is why 
programs such as the COPS initiative to support State and local 
law enforcement are an important part of our Federal efforts. 
In addition to direct support, the cooperative efforts of 
Federal law enforcement with State and local agencies play an 
important role.
    My written testimony further outlines the methamphetamine 
threat, as well as the actions and strategies taken by a host 
of Federal agencies or programs, including DEA, OCDETF, HIDTA 
and the COPS Program on methamphetamine.
    At the appropriate time, I will be happy to answer any 
further questions the committee may have. Thank you.
    [The prepared statement of Mr. Horton follows:]

    [GRAPHIC] [TIFF OMITTED] T1423.046
    
    [GRAPHIC] [TIFF OMITTED] T1423.047
    
    [GRAPHIC] [TIFF OMITTED] T1423.048
    
    [GRAPHIC] [TIFF OMITTED] T1423.049
    
    [GRAPHIC] [TIFF OMITTED] T1423.050
    
    [GRAPHIC] [TIFF OMITTED] T1423.051
    
    [GRAPHIC] [TIFF OMITTED] T1423.052
    
    [GRAPHIC] [TIFF OMITTED] T1423.053
    
    [GRAPHIC] [TIFF OMITTED] T1423.054
    
    [GRAPHIC] [TIFF OMITTED] T1423.055
    
    [GRAPHIC] [TIFF OMITTED] T1423.056
    
    [GRAPHIC] [TIFF OMITTED] T1423.057
    
    Mr. Souder. Let me start with a couple of basic 
informational things to try to figure out this array of 
statistics in front of us.
    The statistics on the chart from DEA, are those incidents 
reported to EPIC or what are those?
    Mr. Guevara. That is exactly it, Mr. Chairman. This is data 
that is reported as a result of State and local agencies to the 
El Paso Intelligence Center, and as a result of the 
participation of the various law enforcement agencies, we were 
able to compile this numeric picture of where all the small 
toxic labs have been located for calendar year 2002 and where 
all the major Mexican influence laboratories were also located.
    Mr. Souder. So, for example, Mr. Boozman just testified 
that there were 955 in Arkansas. That has 390. That would be 
the difference in the State not reporting to EPIC, some 
counties? Not all incidents would go through that system?
    Mr. Guevara. That is entirely a probable reason.
    Mr. Souder. And the problem that this presents is the 
chart, while it is indicative of trends, may be somewhat off 
depending on how a local area responds and what the 
relationships are in reporting.
    Sometimes, like Missouri, I know Congresswoman Emerson has 
been raising for a number of years and Congressman Hulshof and 
others, because clearly Missouri had an extremely high number.
    The red numbers in the super labs, and I want to make sure 
we sort this through, you both said that was the bulk, and you 
are saying 70 percent of all meth comes from in effect those 
red numbers?
    Mr. Guevara. Yes, sir, that would be the conclusion. That 
is where those labs are located. As you can see from the map, a 
large majority of those are in California. I would say again 
that our statistics are representative only of labs reported to 
EPIC and that there may be a number of labs that are not 
reported. So I would have to offer this as a conservative view 
of perhaps what the actual problem is.
    Mr. Souder. In reporting, just so we have this in the 
record, as I understand EPIC, as well as other regional 
reporting systems, there is a fee, and most State Police 
systems are hooked through, maybe Mr. Horton, you could 
elaborate on this too, either of you, in some counties, like my 
bigger counties are hooked through EPIC, but some of the 
smaller ones are not.
    I am also wondering whether there is a reporting thing. 
Part of the difference may be if it is a person producing only 
for himself and his family, that isn't necessarily perceived as 
reportable. If he is selling to three people, that might be 
small. If he is selling in the community, that would definitely 
likely hit the EPIC system.
    Wouldn't this also partly depend on whether they have a 
drug task force in your area, or some of those kinds of 
questions that lead to reporting differences?
    Mr. Horton. I would be happy to take an initial shot at 
that. I think part of the challenge with respect to keeping 
accurate data on methamphetamine lab seizures is exactly the 
facts you suggested, the fact that some jurisdictions 
considering manufacturing, that specific act, to be defined 
differently. Some States you may find a small lab in the back 
of a vehicle and there may be an arrest for methamphetamine 
manufacturing, but it may not result in a conviction for that 
specific crime and some localities may in fact consider 
methamphetamine manufacturing to be defined differently from 
other localities as well.
    Mr. Guevara. That is correct, and that is one of the 
dilemmas. What may be a lab to one jurisdiction may not 
constitute a lab in another.
    Mr. Souder. It is really important so Congress does not 
make a mistake, because every Congressman here, particularly 
from the Great Lakes region west, is feeling pressure on meth, 
is hearing and seeing the same headlines in their district, and 
that is we see far more headlines on meth and meth busts than 
we do anything else.
    It is important, what you are saying here, that is partly 
because of what I tried to communicate, which is very hard to 
communicate, is often the meth lab they are busting is in one 
house covering one person, and it may take 100 of those busts 
to equal one larger dealer bust that we are getting on other 
narcotics or even a super lab or a meth precursor distribution, 
is that not correct?
    This is a political problem, because if you see the number 
of headlines, the community starts to think they have a bigger 
meth problem proportionately than it is actually there, and you 
could also misallocate funds chasing the smaller numbers.
    The other thing is, I know, Mr. Horton, you had in your 
written testimony, I think it is important to get on the 
record, what is meth exactly in the sense of how is it made, 
and then you also I think, Mr. Guevara, in your testimony 
mentioned the Internet, that some of the challenges here is, 
and maybe I will briefly state it and then you elaborate a 
little, that since this is a synthetic that you can 
manufacture, and as you said in your written testimony, you can 
increasingly find these merchants of death who advertise on the 
Internet and elsewhere, you can pick up for small manufacturing 
at a pharmacy. You would not necessarily need a precursor 
dealer. And much like OxyContin is legal in some things and 
ephedrine is not necessarily legal, it is large quantities.
    But the big problem is the large quantities that are coming 
in and for the mass production, and unless we look at the 
trafficking organizations for that, unless we look at the 
trafficking organizations like the big busts in the Great Lakes 
region that would fuel thousands of these things, we could be 
misdirected in chasing down individual homes, knocking to see 
if they are cooking something that night.
    Mr. Guevara. That is in fact part of the challenge or 
dilemma, if I can characterize it that way, is that for the 
small toxic labs, an individual who wants to set up a lab or 
let's say process the precursors into an ounce of 
methamphetamine for the local area consumption, he can actually 
acquire all that he needs and requires for that production 
through the local business community, whether it is the 
hardware, whether it is any number of legitimate businesses 
that he can acquire these.
    He can then turn around and, in this scenario you 
described, whether it is his bathtub or in a trailer or in a 
car, he can actually then convert using these precursors and an 
initial investment of about $100 into an ounce of 
methamphetamine that he can turn around and sell amongst his 
circle for a profit of at least $1,000.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Yes. Mr. Horton, I want you to talk very 
briefly, in your written testimony you talk about production of 
meth in public parks and public land. Can you talk about that 
for a moment?
    Mr. Horton. Certainly. Thank you very much for that 
question, Congressman Cummings, because it appears to be a 
growing problem that not only our federally protected lands, 
but other public lands, whether it be our national forest 
lands, whether it be our national parks, that not only the 
growing of marijuana, but the production of methamphetamine 
sometimes approaching the super lab limit, but often the 
smaller toxic labs, is done by individuals who want to for very 
obvious reasons hide the fact that they are producing 
methamphetamine and for also understandable reasons not do it 
in their own home and their own car and to not be found.
    Later this summer the Director of the Office of National 
Drug Control Policy, John Walters, will be going to 
Bakersfield, CA, where he will be highlighting the problem of 
the production of methamphetamine and also the growing of 
marijuana on public lands. In response to this problem, it is 
important from the Federal perspective that we take a 
cooperative approach to it, because if it is on Federal public 
lands, the State and local agencies, of course, have less 
involvement in that, but then it raises the question of how the 
DEA can be best involved, our Federal prosecutors, and 
sometimes the Departments of Interior or Agriculture and their 
component agencies.
    At the Office of National Drug Control Policy, we hold a 
task force meeting about every 6 or 8 weeks with these 
departments where we review the threat on public lands and how 
to best respond to it. But the fact of the matter is that these 
methamphetamine labs, even when they are small, pose a threat 
not only with the methamphetamine that they produce, but they 
pose an environmental threat as well, because of the great 
toxicity of the ingredients used in methamphetamine, and when 
they are left behind it damages that environment that they are 
left behind in.
    Mr. Cummings. You also talk about pseudoephedrine, and how 
do you pronounce that?
    Mr. Horton. Pseudoephedrine.
    Mr. Cummings. In Canada. I am wondering what kind of 
discussions have we had with the Canadian Government, if any, 
with regard to this problem?
    Mr. Horton. Thank you for that question as well, 
Congressman. I would, after I present the answer, would 
certainly welcome any further comments from my colleague from 
the Drug Enforcement Administration on that, because they have 
also played an important role.
    There are three or four, maybe even up to five methods of 
producing methamphetamine, but the most common ingredient in 
methamphetamine overall is pseudoephedrine, for some detailed 
chemical reasons that I will not go into.
    Whether the manufacturer is running a super lab or whether 
they are running a small toxic lab where they are only 
producing for themselves, pseudoephedrine is an ingredient, and 
speaking as a former prosecutor who handled narcotics cases, if 
we saw somebody with large amounts of pseudoephedrine we often 
knew why they had it.
    With respect to the super labs that constitute, the figures 
go from 70 up into the 90 percent range by estimates of the 
methamphetamine that is circulating in this country, one of the 
great concerns we have had is the fact that many of these super 
labs get bulk quantities of pseudoephedrine either from or 
through Canada. We have worked with the Canadian Government to 
highlight this threat.
    In January of this year, the Canadian Government imposed 
some new rules and regulations pertaining to pseudoephedrine. 
We view that as an improvement. We don't think they go far 
enough. We think there is still some room for progress there, 
and we are going to continue to work with the Canadian 
Government to make sure these large quantities of 
pseudoephedrine are not as readily available. Because, frankly, 
if we can cutoff the ingredients used in methamphetamine, we 
can break the back of the market.
    Mr. Cummings. Do you have anything on that?
    Mr. Guevara. Sir, if I may add just a note on those two 
points, pseudoephedrine is the single most important precursor 
in the manufacture of methamphetamine by the large super labs. 
Were we able to check that availability, we would most 
definitely make an impact into the super labs. That is without 
a doubt.
    Our initiatives that we have pursued jointly with the RCMP 
have in fact indicated that the large amounts of seizures and 
arrests that have occurred surrounding the investigation of 
this chemical has resulted in an increase in the price of 
sudafed in the United States. So that is an indicator that our 
tactics in law enforcement are working.
    Finally, I would like to add another note on your question 
on the national forestry. DEA's experience has been that we 
frequently or most often find these public lands being used as 
dump sites. Missouri, for example, the Mark Twain National 
Forest has a large percentage of these numbers. I would also 
like to add that DEA has trained several forest land personnel 
in equipping them to safely dismantle these labs.
    Mr. Cummings. Tell me something. This may have been 
answered earlier in testimony, but as I look at these numbers 
on the chart, it is clear you have the concentration going 
west. I was wondering, why is that? Is that just because that 
is where they started and it is just slowly moving?
    Mr. Guevara. If I may, sir, the stats that are on the 
board, DEA, we stat all the labs, and any discrepancy coming is 
from the lack of reporting to EPIC. If there is actually more 
and EPIC is not made aware of it, that would not be reported.
    But as to the question of why the concentration in 
California, and I would characterize it as the Southwest, the 
fact is that is where demographically a large portion of the 
Mexican-American/Mexican population has settled, and going back 
historically to the early 1990's, prior to which 
methamphetamine production was largely controlled by the outlaw 
motorcycle gangs, what occurred there was that the Mexicans had 
access to the chemicals, to the pseudoephedrine and other 
things like that, pseudoephedrine being key, they actually had 
access to these chemicals in Mexico and easily acquired them 
because they are easily found.
    What occurred is they somehow connect with the outlaw 
motorcycle gangs to the extent they started supplying these 
precursors. Then of course being the shrewd businessmen they 
are, they decided we can make it ourselves, and that is exactly 
what they did. The net result was they were able to produce it 
in vastly larger quantities at a higher purity, and back to the 
early nineties when the outlaw motorcycle gangs, the Hell's 
Angels I would say, were selling a pound of methamphetamine for 
$10,000, the Mexicans were able to produce more, better, and 
sell it for $6,000 a pound. So, of course, they moved those 
criminal influences to the side. They remain engaged, but more 
in their own circles. They cannot clearly compete with the 
Mexicans.
    What has occurred there, that is where it started in 
California, and then as we moved eastward and as the 
demographics changed and many immigrant hard-working, well-
intended Mexicans moved across our country, along with them, of 
course, comes that small percentage of criminals who are using 
that community either to hide in or to use to transport and 
eventually distribute this methamphetamine throughout the 
country, and it continues to move.
    Mr. Cummings. I don't have anything else.
    Mr. Souder. It is really interesting as you look at your 
map in particular, because a couple of things that become 
apparent. I know from working with this issue and also my own 
State and being on the National Parks Committee and stuff, part 
of it is in the West you have the places for the super labs, 
the parks and particularly the forest lands, to some degree 
BLM.
    In Indiana, I would bet 100 percent that super lab was down 
in Hoosier National Forest. That is where the big ones are. We 
only have one national forest, and bang, that is where they go.
    You have it coming up from Mexico, in the State of 
Washington and coming through Detroit, you can see Missouri is 
getting hit from both directions, because Canada and Mexico are 
the biggest places the precursors are coming from, they are 
hitting in those zones.
    I think it is really important in the verbal record as well 
as the written testimony, in Mr. Guevara's testimony, where you 
referred to a couple of things. One is, for example, in picking 
up 22 million pseudoephedrine tablets in Panama and Laredo, we 
are talking about huge quantities as opposed to smaller 
quantities.
    Also the investigation in Canada, where six executives from 
three Canadian chemical companies were targeted and sold bulk 
quantities, if we can get control of the bulk portion, we will 
be better able then to tackle the regional problems we have in 
each of our home States.
    I also thought that in your written testimony you said the 
size of the lab does not matter when it comes to the danger 
level involved. In other words, cases of child abuse, of 
cleanup, when law enforcement comes in, you are saying the size 
of the lab is not as critical, partly because they may not even 
know how to manage the chemicals as well or dispose of them as 
a super lab, or not disguise it as well. What does that 
statement mean?
    Mr. Guevara. One of the considerations is the toxic waste 
that is generated behind the production. Generally speaking, 
there is a ratio of about one to five. For every 1 pound of 
methamphetamine that is produced, there is 5 pounds of toxic 
hazardous waste that is produced. Of course, they will do 
whatever they want with that, whether it is just throw it out 
in the frontyard or flush it down the toilet, literally.
    So this toxic waste becomes extremely hazardous, and DEA is 
responsible for providing that assistance to the State and 
local, and it does so through the funding of the COPS Program. 
DEA is at the forefront in working with our State and local 
counterparts. Today, as we speak, they are trying to become 
creative and design new ways to bring the costs down, because 
it is a costly project.
    Mr. Souder. We have four votes, which is going to take a 
half-hour. So I am going to suspend. I want to say one other 
thing. First I want to acknowledge that we have Congressman 
Baird with us, who has been a leader in the Meth Caucus. We 
have several witnesses from his area I will let him introduce 
in the next panel.
    I will also say we are going to do a multi-committee 
hearing in California looking in particular at a number of the 
parks there. This subcommittee does all narcotics. We also have 
jurisdiction over the parks. Mr. Ose's subcommittee has 
jurisdiction over the forests. We are also going to do it in 
conjunction with the Resource Committee and the Parks Committee 
there, because we have had several huge incidents there in both 
Sequoia and up in the Sierra National Forest. So we are going 
to focus a little bit on some of these super labs and the 
problems there. Of course, Olympic National Park.
    It is not just meth, it is also the synthetic marijuana 
being produced that is coming through in the transit zones in 
these park areas as we learned from Big Bend at our hearing in 
Texas and Organ Pipe in Arizona.
    Mr. Baird, do you have any quick questions?
    Mr. Baird. I appreciate the opportunity to be here. The 
only thing I would say in response to Mr. Cummings' statement, 
I formerly was a clinical psychologist and treated folks. I 
think the key difference between methamphetamine and some of 
the other drugs is you can manufacture it. So you get a pyramid 
kind of marketing and manufacturing scheme, where if you can 
turn somebody else on to using, they can go on the Internet, 
figure out how to make it, go buy some pseudoephedrine, get 
some kids to buy large quantities, they can manufacture it.
    I don't mean to be pejorative here, but it is somewhat like 
Amway, in the sense you can create a host of sub-users, and if 
you can provide the precursor, what happens is once it gets 
entrenched, you now get a distribution network that expands 
out.
    It is much different from, say, cocaine or heroin where you 
have to have a central distribution network and there are often 
gangs, etc. You can make your own methamphetamine from things 
you can buy in the store. So once it gets entrenched, even if 
the other areas show lower numbers right now, we have just got 
a little more history. But when you have a drug that can grow 
exponentially and can be manufactured at home, you can expect, 
I believe, frankly, that in other areas meth will begin to 
supplant crack and some other things just because of the way it 
can be made and distributed, which is why it is so deadly and 
why we work so hard in the caucus, and our law enforcement 
officers will tell us more about that.
    Mr. Souder. Thank you both for your leadership. I am sure 
we will have followup questions. With that, the subcommittee 
stands in recess.
    [Recess.]
    Mr. Souder. The subcommittee is called back to order. I'd 
like to now swear in the witnesses on the third panel. Will you 
raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witnesses all 
responded in the affirmative.
    I now yield to Chairman Ose.
    Mr. Ose. Thank you, Mr. Chairman. It is a pleasure to be 
here today. We have joining us on this panel a representative 
from the Sacramento County Sheriff's Department who has a long 
and illustrious career, and it is an honor to get the 
opportunity to introduce him for the purposes of testimony.
    Bill Kelly is a captain with the Sacramento County 
Sheriff's Department, and he's been with the county 24 years. 
Prior to that, he served his country as a member of the Marine 
Corps. He has a law degree. His experience with the county is 
not strictly limited to narcotics, but he has had a wide 
exposure and experience to all of the various requirements of 
local law enforcement, and I just want to step through some of 
those.
    He served as a patrol deputy. He has also been involved in 
the operations side of the department. He was one of the select 
few that is chosen to serve on our county's SWAT team, and he 
has now and for the past period of time been the chief of the 
Sacramento County Sheriff's Department Narcotics Division. He 
has a good background, a solid record of performance. His 
testimony, I'm sure, he'll share with us. He does us all a 
favor, Mr. Chairman, of speaking plainly and directly to the 
issues we face on methamphetamine, in particular.
    I'm pleased to welcome to our witness table Captain Bill 
Kelly.

STATEMENT OF BILL KELLY, CAPTAIN, SACRAMENTO COUNTRY SHERIFF'S 
                 DEPARTMENT, NARCOTICS DIVISION

    Captain Kelly. Thank you very much, Congressman. I hope I 
can live up to that introduction. Thank you very much for 
having me here today, and on behalf of Sheriff Lou Blanas, the 
Sacramento County sheriff, he sends his regards to this 
committee and to Congressman Ose.
    Good morning. I'm Bill Kelly. I'm a captain with the 
Sacramento County Sheriff's Department. I command the Sheriff's 
Department Narcotics Unit. I'm also the director of the 
California Multijurisdictional Methamphetamine Program.
    In September 2001, specifically, the State of California 
recognized that there was a need to address the methamphetamine 
problem from a local level. The legislature and the Governor, 
upon lobbying by the sheriffs, committed $60 million over a 3-
year period to develop frontline law enforcement's effort to 
combat methamphetamine production and distribution, and we 
created the CALMET program.
    Essentially what that did is, we paid some personnel costs 
from the State level; whereas, the HIDTA did not pay the 
personnel costs which run about 80 to 85 percent of any 
program. Personnel costs are just downright expensive. We can 
buy equipment; it is always nice to be able to get the money 
for equipment, but it's the personnel money and the personnel 
costs for frontline law enforcement that's really important to 
any local agency.
    Local area law enforcement are pretty much charged with the 
principles of education enforcement and treatment within the 
narcotics community. We don't do much in the treatment program 
other than enforce the laws and introduce those who are 
arrested into the court system whereby, for the users, the drug 
courts have come into focus, and they assist these individuals 
who are the users in getting back their lives.
    Law enforcement in Sacramento County has found that there's 
a huge distribution level and production level of 
methamphetamine, specifically because part of our county is 
rural and because we have major roadways and thoroughfares that 
transition the States, specifically the I-5 corridor. I'll 
bring to light a couple of different recent investigations that 
we had that should focus a little bit on the production and the 
distribution of methamphetamine within the State of California.
    We recently had one case, just last week, where we took 
down a super lab just north of Sacramento County. There were 17 
pounds of methamphetamine destined for Atlanta, GA. So not only 
did we produce the methamphetamine in the State of California, 
but we're also a major source of exportation of it.
    We've also found that it's a polydrug culture in a lot of 
senses. When they can't distribute their methamphetamine, they 
will distribute other narcotics. In two of our most recent 
methamphetamine investigations, we seized 115 pounds of cocaine 
and 144 pounds of cocaine in addition to substantial numbers of 
methamphetamine. So it's a polydrug culture.
    These people are in business to distribute narcotics. The 
large-scale organizations, the drug trafficking organizations, 
they are not users. They market their product to society; they 
don't use it themselves. They are in the business of marketing 
and making money.
    Local law enforcement, specifically at the city and at the 
county, are the law enforcement most prepared and most 
identified to address a specific need within a community. 
There's always inherent problems in policing a community. There 
are always going to be burglaries. You're always going to have 
robberies. You're always going to have vandalism, but when you 
get a product such as methamphetamine that is produced in large 
quantities and distributed throughout the United States, local 
law enforcement needs assistance; and that's why we appreciate 
the House's consideration of the bill in making available, 
hopefully, funds to local law enforcement to assist them in 
addressing these problems in the future.
    Again, on behalf of Sheriff Blanas, I thank you.
    [The prepared statement of Captain Kelly follows:]

    [GRAPHIC] [TIFF OMITTED] T1423.058
    
    [GRAPHIC] [TIFF OMITTED] T1423.059
    
    [GRAPHIC] [TIFF OMITTED] T1423.060
    
    [GRAPHIC] [TIFF OMITTED] T1423.061
    
    Mr. Souder. Well, thank you very much for your testimony. 
I'm going to go ahead and introduce the next two witnesses. 
I'll let Congressman Baird, if he gets here, then sing your 
praises in more detail, but we appreciate very much Chief 
Martinek from the Vancouver, WA, Police Department and Sheriff 
Lucas from Clark County, which is Vancouver--west, is it, 
toward the coast; would that be Clark, or north?
    Sheriff Lucas. Actually east and west and north.
    Mr. Souder. It's all around, and Vancouver is the center of 
that county. Does it go to Longview?
    Sheriff Lucas. Vancouver sits in the lower southwest corner 
of the county.
    Mr. Souder. But we thank both of you. We've heard about the 
Washington State problem and are looking forward to hearing 
your testimony. And then we'll ask questions and draw it out a 
little further.
    Chief Martinek.

 STATEMENT OF BRIAN J. MARTINEK, CHIEF, VANCOUVER, WA, POLICE 
                           DEPARTMENT

    Chief Martinek. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to speak to you. I am 
Chief Brian Martinek, the chief of the Vancouver Police 
Department, as our mayor likes to refer to it, America's 
Vancouver. And we don't want to be confused with Canada's 
Vancouver, but with the 2010 Olympics coming, come to our 
Vancouver anyway. Spend your money there.
    But anyway, it's indeed a pleasure to be here and an honor 
to be able to testify on what is a major problem in our area, 
and across the United States obviously, after hearing some of 
the testimony. Methamphetamine, unlike most common illegal 
drugs that are abused like heroin and marijuana and cocaine, 
has a negative impact on our society in every stage of its 
existence, from its manufacture to its distribution.
    And to the use of it, it is different in that fashion; and 
a negative impact of this drug is that it has tentacles that 
can often and do often reach every level of our society. And I 
think that's the important focus for all of us to remember when 
we're trying to address this problem. It is multidimensional, 
as the captain was pointing out. There are more things that--
related to this drug in terms of its negative impact than with 
most of the others.
    The drug's use, distribution and manufacturing is a problem 
with multidimensional consequences affecting men, women and 
children. It knows no cultural or ethnic boundaries. It affects 
people. Businesses, teachers, homeless, doctors, lawyers, the 
justice system, police and public officials are all dealing 
with its effects. Whether we are using it or not, it affects 
us, and I think that's what I've heard consistently with every 
group that has talked here today; and what I would hope we 
would look at is a multidimensional strategy for ridding our 
area of it.
    In my 18-year career, including 6 years specifically 
assigned to a drug task force, starting in the early 1990's, we 
saw methamphetamine as a predominantly domestically controlled 
drug that has now in a very short period of time taken on an 
international competitive nature. This drug is indeed an 
internationally marketed drug and supplied drug.
    As a law enforcement officer, I've seen the drug involved 
in every part of the law enforcement field: murder 
investigations over meth lab businesses, where one person was 
killed simply because of a marketing difference and how they 
were going to market and sell their product; businesses 
affected by the direct result of employees being on 
methamphetamine and using it while they're working; labs in 
apartments and hotels and vehicles, which affects every part of 
society in that labs blow up. You don't have scientists running 
these labs; you have people who don't know what they're doing 
that are oftentimes high when they're doing it.
    Burglary, fraud, theft and other property crimes 
skyrocketing is a direct result of sometimes organized groups 
of methamphetamine-connected criminals.
    I think it was interesting to hear the captain talk about 
the multitude of different activities that these groups take 
on. It is not just drug trafficking. Organized groups in our 
area and our region--and I know that this is happening on the 
West Coast--are organizing people who are using methamphetamine 
to steal people's identities and use that information to make 
money; and eventually that money is put back into the 
methamphetamine purchasing part of the business.
    Theft and other computer technology-aided and -enhanced 
crimes are often connected with our search warrants and arrest 
of people who we serve search warrants on for methamphetamine. 
Seventy-five percent of the Clark County prosecutor's felony 
drug case load involves methamphetamine. A major portion of the 
people booked into the Clark County jail have tested positive 
for methamphetamine. Police records show a 32 percent rise in 
the use of methamphetamine in our area over only a 3-year 
period.
    I just had a conversation with one of our mental health 
professionals who told me that there's a significant rise of 
assaults on medical staff, including mental health workers in 
emergency rooms across our region, directly attributed to 
methamphetamine users who are going through violent phases of 
the use of the drug.
    Its spread has gone from a predominantly West Coast 
presence to being prevalent around the United States, including 
the Midwestern sections and parts of the East and southern 
United States. It is quickly becoming the No. 1 drug problem in 
the United States because of its multidimensional effects; and 
I would say that if you don't have it in your State or you 
don't have a significant problem, you will, and that is based 
on experience from talking to other chiefs across the United 
States.
    One of the focuses I hope this group will take, and this 
legislation can help address, is the environmental concerns 
because of the chemicals that are dumped into the sewers, the 
watersheds and the streams of our areas. It is a fact that the 
end waste product of meth labs is responsible for contaminating 
not only homes and businesses and apartments and motels, but 
it's also being dumped into our wildlands, into our public 
parks and into our national parks. We find on a regular basis 
meth labs, small and large, that have been dumped into 
different areas of our region.
    The average cost of a meth lab cleanup for law enforcement 
in our area is between $5,000 to $10,000. I need to point out 
that's the law enforcement cost for cleanup. The next cleanup 
process is that of the owner of the residence, and I heard some 
talk about judges assigning the suspects a task to pay back for 
what they cause in damage. That rarely happens. Without DEA 
funding and training, we would be severely underbudgeted for 
the cleanup alone.
    The other effect that it has, though, is that the owners--
in most States the owners of the property where the meth lab 
was at are responsible for the eventual cleanup of that 
residence before anyone can move back into it legally. There is 
a big impact on owners. Last year in the State--or in 2001, in 
the State of Washington, we had over 1,300 meth labs. Last year 
as you saw from the DEA's numbers, we had 1,450 meth labs.
    We absolutely need a multi-disciplinary approach to the 
strategy for the elimination of methamphetamine from our 
communities. Prevention, interdiction, treatment and a strong 
chemical precursor control and law enforcement legislation is 
needed. We need to wrap up our ability to control precursors, 
both in the United States and coming from outside of the United 
States as we heard in the example from Canada, before we are 
going to get control of these large super lab type 
organizations that are running that methamphetamine up the 
coast.
    We share the I-5 corridor with the Captain's agency, and I 
think that is one of the reasons, in answer to the question of 
why there are so many high numbers on the west end of the 
United States and then going across to the Midwest.
    The U.S. Government can help local communities most by 
supporting and maintaining appropriate funding, legislation and 
personnel support to our mission. In our southwest region of 
Washington State, we have no U.S. Attorney's Office or Federal 
Court, and we don't have a strong presence and staffing of law 
enforcement Federal agents there, because we are in between 
sort of a barrier with the Portland District U.S. Attorney's 
Office and the Seattle district being 130 miles away from us. 
It causes some logistical issues that do not always get us the 
kind of law enforcement assistance that we need.
    Having said that, the Western U.S. attorney, John McKay, is 
doing a great job of starting to improve that process for us, 
but it is something where we do need some very, very much long 
overdue help from the Federal side in terms of law enforcement.
    We are not going to win the war against this epidemic or 
any drug epidemic without the cooperation and collaboration of 
the Federal drug system. That is just the fact of the way this 
system works up, especially when you are trying to go to the 
top end distributors. Lack of Federal courts in our area has 
been a problem for us.
    We, however, do really appreciate the support we have had 
in terms of the Byrne grants and HIDTA funds and recently we 
were awarded $225,000 out of the Department of Justice COPS 
fund to do a methamphetamine research and strategy project that 
would give us a better idea of what the effects are in our 
local community. Vancouver has 150,000 people. Clark County 
altogether has about 350,000.
    We want to involve the community as we do in other areas of 
law enforcement so that they are a part of coming up with the 
solution, because, again, in closing, to make any strategy 
work, it has to be a multi-dimensional, multi-disciplinary 
approach, that includes prevention, that includes treatment, 
legislation and enforcement, and the community has to be a part 
of that strategy, or it is not going to work. It will not be 
safe for people to come and help us unless we have the leaders 
of the community, both formal and informal, speaking up and 
being part of the solution.
    So I thank you again for this opportunity. If there is 
anything else we can do, we would be glad to be part of it.
    Mr. Souder. Thank you very much.
    Sheriff Lucas.
    [The prepared statement of Mr. Martinek follows:]

    [GRAPHIC] [TIFF OMITTED] T1423.062
    
    Sheriff Lucas. Chairman Souder, members of the committee, I 
am Garry Lucas. I am the sheriff of Clark County, beginning my 
fourth term and 36th year of law enforcement service with the 
county of Clark.
    Our methamphetamine problem began in the mid-1970's, so we 
have been wrestling with this issue for some time. In a recent 
series of four articles by the Vancouver Columbian on the 
methamphetamine problem in Clark County, one official described 
it as being of epidemic proportion. The abuse of 
methamphetamine is growing rapidly within our communities and 
across the country. If it is not a problem in your community 
now, it will be.
    Methamphetamine abuse is pernicious. It is extremely 
addictive, relatively easy to produce, gives an intense, long-
lasting high, and is cheaper on the street than heroin or 
cocaine. The chemicals used to produce meth are poisonous, 
explosive and environmentally hazardous. Users coming down from 
this intense high suffer from delusions, depression and 
paranoia. They often react violently and unpredictably to those 
around them.
    Methamphetamine's effects slice across the fabric of our 
community. Individuals using meth suffer physical and mental 
dissipation, families disintegrate in its wake. We found 
toddlers sleeping and playing in direct proximity to toxic 
clandestine meth labs.
    Children in our grade schools have been caught with 
methamphetamine in their possession. Neighborhoods are alarmed 
by meth cooks, dealers and their customers. Our wilderness 
areas and campgrounds have been defaced by meth cooks dumping 
their toxic wastes. Rental owners have had their properties 
devalued by the results of meth labs in their units. Rental 
houses where meth labs have been producing have been demolished 
because it was simply too costly to renovate the property. Our 
community's quality of life has been degraded by 
methamphetamine production and use.
    The costs of dealing with the problem are immense. A 
Portland, OR, Police Bureau study revealed that 80 percent of 
their fraud, forgery and identity theft cases were related to 
the use and production of methamphetamine. Fraud, forgery and 
identify theft are our fastest growing crime category, costing 
tens of millions of dollars in our three-State region.
    Clark County government is spending millions of dollars in 
the criminal justice system, the social service system, the 
medical community, the mental health community and substance 
abuse treatment community that can be directly attributed to 
the production, sale and abuse of methamphetamine.
    Let me close with a thank you to our Federal Government. 
Inclusion of the southwest Washington and Northwest high 
intensity drug trafficking area is viewed by our law 
enforcement agencies as a ray of hope. COPS grants give us 
manpower that we would not otherwise have to be able to address 
this issue. Byrne grant dollars are the backbone of our Clark's 
Community Drug Task Force. We would not be able to continue our 
efforts at their current level without them. Byrne grant 
dollars have funded 60 percent of all drug prosecutions in 
Clark County. Your infusion of money in the form of meth 
initiative dollars has enabled us to support a 
multidisciplinary group of professionals across our State and 
in our community to combat the production and use of 
methamphetamine in innovative ways.
    The return of these dollars to our community has been 
essential. We have used them effectively to combat this growing 
and vexing plague on our community.
    I would end with a plea, and that is please keep our 
northwest HIDTA, Byrne grant, meth initiative and treatment 
dollars flowing to the law enforcement, education, prevention 
and mental health agencies in our local communities to help us 
address this problem.
    Mr. Souder. I thank you each for the long travel you have 
made to come here to give testimony. Generally speaking, we try 
to have a meth hearing at least probably, this is our second or 
third one in a period of 3 or 4 years. So you are rare but 
important participants in a process as we continue to gather 
information on how to approach the meth question.
    Let me ask each of you to respond. I am going to cluster a 
couple of questions together, and then--before I get into that, 
I have a couple of technical questions that I want to get on 
the record before I get into some policy records.
    You saw the chart earlier that showed the number of labs. 
In the Washington State number, it was 1,417. The number I 
believe you used, Chief, was 1,310. Do you know where that 
number comes from?
    Chief Martinek. The 1,350 is from 2001 and the DEA numbers 
are from 2002. Those are consistent with what we think the 
numbers would be. But the source of our numbers is from the 
Washington State Sheriffs and Chiefs Association.
    Mr. Souder. And do all of your labs go into EPIC and count, 
or if that was the previous year, you said you think it is 
consistent with. Do you think you could actually be up to 
1,700? You heard us earlier talking about the difficulty of 
collecting at the local level.
    Chief Martinek. Yes, and that is a long time difficult 
process problem across the United States. I would say our 
numbers are probably pretty close to the DEA's, but I would 
also say there is no way that I think anyone knows of right now 
to make them absolutely consistent because of reporting errors. 
That has been a common traditional problem in law enforcement 
for my entire career, and my understanding from Sheriff Lucas, 
it goes beyond the start of my career.
    My guess and my information from being involved with the 
Western States Information Network and EPIC and some of the 
other narcotics enforcement intelligence sources is some of 
those numbers are underreported. I can tell you from personal 
experience that the Oregon numbers seem to be very much 
underreported that were indicated on the DEA board, and that is 
typical. I spent 14 years in law enforcement there, and they 
don't have the reporting systems up to speed with EPIC that 
Washington State does.
    So I think our numbers are accurate, but I can't answer 
you, because we had such short notice, as to whether they are 
exact.
    Mr. Souder. Captain Kelly, do you have any comment?
    Captain Kelly. I would agree, Congressman. We pay attention 
to the stats, we certainly do, but there is no universal 
reporting mechanism nor mandate. I will highlight this for you.
    You saw some numbers that were posted up there by the DEA 
in 2002 with respect to Missouri. Missouri has seen a huge 
increase from about 900 reportable labs in 2000 to more than 
2,100 in 2001. I was curious about this, so I went and did the 
research on this.
    What happened in the State of Missouri was they came up 
with a mandated reporting law. But what do they distinguish? Is 
it a box lab? Is it just flasks? Is it a super lab? Are they 
reporting just everything? Are they reporting the Beavis and--
well, let me put it this way, the mom and pop one small lab, or 
are they reporting the super lab? So they are reporting 
everything.
    There is no universal system. That is good for the State of 
Missouri that they do that, because they can track it. I wish 
we all did that, but we don't. So, it would be nice to have a 
mandated reporting system with some definitive guidelines, and 
that way we could track the stats better.
    Mr. Souder. Pursuing that a little bit, Sheriff Lucas, 
getting into a broader question, mandatory reporting laws are 
one way that things would be different. When a county like 
Clark County becomes highly aware of their problem, how much of 
this do you think is an actual increase in meth usage versus 
now you are aware of it, you are tracking it closer, your 
officers have been trained to look for it? Another way to ask 
that is Part A. Part B is, is it as severe in the counties 
around Clark, and, if not, why not? Would it be they are not 
focused on it as much, or is it in fact as severe?
    Sheriff Lucas. Well, we have been aware of the 
methamphetamine problem, as I pointed out, since the 1970's, so 
growth is not attributable to the fact all of a sudden we 
became aware and started counting. We have been counting for a 
long time and the numbers continue to go up.
    Second, we are in kind of a unique position, because we are 
the population center for southwest Washington, and the 
counties that surround us, Skamania County, for example, has a 
population of about 13,000, I want to say--15,000. Cowlitz 
County probably greater than that, probably in the 75,000 
figure, and Wahkiakum County is similar. So, we are the 
population center located directly across the river from 
Portland.
    Mr. Souder. From what we heard earlier from Arkansas, and 
this is kind of different, and in my home area which would be 
similar, the city of Fort Wayne is bigger than the city of 
Vancouver, the county is roughly the same, but when you move 
out of Allen County you drop to counties of about 30,000, but 
meth labs are actually increasing as you move out from the 
city. Is that true, and why wouldn't it be moving into some of 
the rural areas?
    Sheriff Lucas. Actually they become dumping grounds and 
manufacturing spots, because a less-populated county often has 
fewer officers to be able to deal with the problem, it is more 
difficult to discover their operation and dumping their toxic 
wastes is much easier.
    Mr. Souder. And following up with that, and then I want to 
do the same thing for Sacramento, one of the things that is 
fairly arbitrary, we have this problem a little bit as we 
looked at our Southwest border HIDTA, and we are trying to 
address that in the new ONDCP bill a little bit, but the New 
Mexico State Police and New Mexico agencies view it as New 
Mexico, and Arizona views their border as Arizona, and 
California as California, and Texas as Texas, whereas the 
cartels are much more fluid.
    I am wondering how this deals around State lines? In my 
area, Fort Wayne is dominant, but clearly as a shopping region, 
as a TV region, as everything else, western Ohio moves in, 
southern Michigan moves in. In your area it has to be even more 
pronounced with Portland. When you do regional task force 
things or when you look at a problem like meth or heroin or 
cocaine, marijuana, Ecstasy, do you pull toward Portland, or do 
you pull toward Seattle, because you are part of the State of 
Washington?
    Sheriff Lucas. There are several distribution routes that 
flow across the West Coast. I-5 is the main distribution 
channel. It goes into the tri-cities area, into the Yakima 
area, and north into Vancouver, B.C., through Seattle. We try 
to coordinate our efforts with DEA. Our Clark Community Drug 
Task Force is connected. We attempt to do our interdiction 
efforts. Our efforts have led us into California, and 
California folks have developed cases in Clark County and on up 
into Vancouver, British Columbia. So the law enforcement 
network is fairly well tied together.
    Mr. Souder. Is Vancouver considered part of the Portland 
SMSA, the Standard Metropolitan Statistical Area?
    Sheriff Lucas. I believe so.
    Mr. Souder. Do you have anybody that sits on any drug task 
force in Portland or on any HIDTA in Portland, or do you sit on 
all the Washington things but coordinate them with Oregon?
    Chief Martinek. The answer is we do both. We actually have 
an officer assigned to the DEA task force that is the liaison 
to our drug task force. He works out of Portland with that task 
force, and they go back and forth.
    Sheriff Lucas and I are on some drug advisory committees, 
including the ETTF task force over in Portland. We do draw into 
Portland. That is a big part of our trafficking, it goes across 
the border there. But the fact is the I-5 corridor is our main 
route and it goes from one end of the country to the other and 
affects us very much so.
    Mr. Souder. Let me ask another Washington question. Do you 
see much swapping of your meth for BC-bud? In other words, what 
we are hearing from Canada is--they are obviously selling--let 
me quote Customs. If they see somebody with a hockey bag coming 
across the border, they assume it is BC-bud. They are not just 
coming to live in the United States with the BC-bud, they are 
usually walking back with cocaine, sometimes heroin.
    The question is are they taking any meth back, or is meth 
not transported that way?
    Sheriff Lucas. I don't have any specific knowledge that 
would relate to that question.
    Chief Martinek. I am not aware of meth being traded that 
way either.
    Mr. Souder. Are your precursors, particularly for your 
larger labs, are they coming from Vancouver, Canada, the other 
Vancouver?
    Sheriff Lucas. The large volume of ephedrine principally is 
coming from Canada.
    Mr. Souder. We had one case being closely investigated in 
one of my counties where a biker gang had actually sent 
somebody through pharmacy school and had set up a traditional 
pharmacy which became the laundering agent. Have you seen any 
of that penetration spoke the pharmacy community, where they 
could actually feed the local labs?
    Chief Martinek. What we see more commonly is because we 
don't have as tight a precursor law as, say, California does, 
they don't have to put someone into the chemical companies. 
They are able to get large amounts of precursor chemicals 
through legitimate companies because of the lack of awareness 
and the lack of legislative authority to stop that. That is 
most common. I have not personally, and I don't think our drug 
task force, has seen that in the State of Washington. However, 
we have investigated and are investigating several Internet 
suppliers.
    Mr. Souder. Captain Kelly, in California, your Sacramento 
County, could you give a little bit of the population with that 
and the nature of the territory that you are working with?
    Captain Kelly. Sacramento County is about 1,000 square 
miles. It is pretty much heavily populated. The population is 
about 2 million within that general Sacramento County area and 
the outlying areas of Placer County, El Dorado, and Yolo, 
Sacramento being the hub of both Highway 50, Highway 80, I-5, 
and also the Sacramento River, the ports, and also having the 
delta where we have a lot of migrant workers. We have rural 
portions out there. Those are where our super labs would be. We 
also have the international airport.
    So we are a major hub for transportation-distribution. And 
it is interesting you brought up the exchange of coke for BC-
bud. We just finished a case with that, where there was an 
exchange of BC-bud down through the I-5 corridor, that we just 
nailed somebody transporting 75 kilos up to Canada in exchange 
for that. So it is a major distribution route.
    Mr. Souder. In the earlier discussions where we talked 
about meth predominantly being a rural phenomena, why do you 
think the Central Valley has evolved differently and the major 
metropolitan area has evolved differently?
    Captain Kelly. I will take you through the steps on that, 
sir. Methamphetamine can be produced, and you brought up 
earlier how it is easily found on the Internet. I brought this 
with me. I printed this out on the Internet the other day. It 
is easy to find this stuff about how to produce 
methamphetamine.
    Within the cities, within heavily populated areas, you have 
a difficult time making large quantities of methamphetamine 
because of the odors, because of the physical hazards of taking 
the chemicals, the supplies, and everything into a heavily 
populated area. So you get your smaller labs and your different 
methodologies such as the ``Nazi'' methodology, the different 
methodologies that these meth users and meth cookers make their 
products.
    As you get into the outlying areas and start getting into 
the super labs, you have more vacant area, more rural area, 
where the chemicals are not as detectable. There is 
availability of chemicals from the farmlands, where they can go 
rip these farmers off for their anhydrous ammonia, and then 
they can set up shop out there in some rural portion of the 
field, and they will cook 20, 40, 60, 100 pounds of meth within 
a 24-hour period. They dump the chemicals into the groundwater, 
into the ecological supply, they are on the road, and so is 100 
pounds of meth, plain and simple.
    Within the cities, you can't do that, so you get the 
smaller labs. So the more rural area, the larger the labs you 
will get.
    Then, of course, generally the Mexican nationals and the 
migrant workers sometimes are more or less associated with the 
cooking portions of it, and they kind of avoid the heavily 
populated areas. Either they can't live there, they can't 
afford to live there, they can't find jobs there, something 
like that. But it is not all Mexican nationals. It predominates 
that.
    Mr. Souder. Is the Sierra National Forest close to you?
    Captain Kelly. Yes.
    Mr. Souder. Isn't that where they found the heroin poppy 
growing?
    Captain Kelly. Yes, it is. That is interesting too. It is 
very close, about 60 miles away from Sacramento. Growing 
poppies in the State of California, other than the State 
flower, unbelievable.
    Mr. Souder. Is that part of the giant labs in your area, 
the super labs, the heroin, the quantity of BC-bud, the coke 
busts that you talked about, is Sacramento a hub because you 
have a number of these national forests and open areas around 
it, and then they move through Sacramento to move to other 
parts of the United States? In the Central Valley, what would 
be the other major hubs? Would Fresno and Modesto have similar 
things?
    Captain Kelly. They do. They butt up to the Yosemite Valley 
and the national forests and the parks. They will go into the 
rural areas, and the more rural the better, the more likely 
they are not going to get detected. So if they can get into 
those parks, they certainly will go into those parks. But there 
is still enough rural land within the State of California and 
within any of the States, I think, that they can always find 
their little niche where they are going to make their dope.
    Mr. Souder. According to this DEA chart, there is 191 super 
labs that they had reported through EPIC, 159 of which were 
California, which means that if those super labs were 
accounting, as they said, for 70 percent of meth sales in the 
United States, it means that California is somewhere around 60 
percent, 58 to 60 percent, of all the meth in the United States 
is coming, and most of it from the Central Valley, is that 
correct?
    Captain Kelly. There is a lot of meth generated and cooked 
in southern California, too. You have the deserts, you have 
rural farmland and everything. I can highlight, within the last 
year and a half we have seized up in the Central Valley, in the 
north of the State, 250 labs. Those are actual cooking labs. I 
am not talking dump sites, I am talking pseudoephedrine 
reductions. I am talking an actual 250 labs. Out of those, 45 
were super labs. They were capable of producing more than 10 
pounds in one cook. About 18 percent. That seems to be about 
the number; 18, 20, low 20 percent is the number of super labs 
in comparison to the other labs that are found.
    Mr. Souder. That was just your counting?
    Captain Kelly. That was actually just my program for about 
an 18-month period.
    Mr. Souder. Mr. Baird has joined us. I told them you were 
going to give this sterling introduction, so if you want to add 
anything to the introductions or have any comments or 
questions?
    Mr. Baird. I want to thank the chairman and apologize to my 
good friends back home. They are familiar, we have an area 
called Camp Bonneville, which is literally coming to a head at 
the exact same time this hearing was scheduled, plus votes on 
the floor. My humble apologies, but I just could not be both 
places at once.
    The reason I want to thank the chairman for inviting all 
three of these individuals, I think it is so important for us 
to hear from people on the ground who deal with this every day. 
I have done ride-alongs with the officers, the crew, where they 
do a great job. But one of the things I think they might help 
us to understand in the committee and the Congress is the added 
cost and burden of bringing down a meth site versus, let's say, 
a marijuana operation or dealing heroin or cocaine.
    I wonder if they could talk about some of the added things, 
and particularly both in terms of financial costs, but also 
risk to your officers, being exposed to the toxins and possible 
explosive environment. I wonder if any of the three could 
enlighten us about that. What kind of challenge do your 
officers face on the street physically in terms of safety and 
what are the economic implications of those additional hazards 
and costs?
    Chief Martinek. Well, there are extreme costs associated, I 
would call them extreme costs associated with law enforcement 
when it comes to meth and meth labs because of the equipment 
needed for each officer to be able to go in. The dangers are 
many, and I think that the captain would be better able to tell 
that part of it. I would just say this, in every case that we 
go into a house, the potential for a meth lab to be behind the 
door is there, and the volatility of the chemicals used in the 
process is always life-threatening when someone goes through 
the door, and most of the time, unless we have a search warrant 
for a meth lab, they are going through not necessarily knowing 
whether there is a meth lab on the other side.
    Now, it is true that most of the meth labs we are talking 
about are not super lab sized, but the end result of an 
explosion or the chemicals that could permeate someone's skin 
are, nonetheless, dangerous to our officers.
    The training, I said this before in my statement, but the 
training and the equipment that it takes to just outfit the 
HAZMAT teams and the police officers that routinely go into 
these meth labs is very burdensome. Again, if we didn't have 
the funding we get from the DEA or from the Federal Government, 
along with our agencies' budgeting, we would not be able to 
make it. We are getting to that point of where we are breaking.
    We have been fortunate to get some funding in that area 
through Homeland Defense dollars and some other avenues, but we 
are, at least for my agency, we are way behind in getting our 
patrol officers and those that may run into that accidentally 
every day equipped to the level they need to be.
    Mr. Baird. Thank you. One of the things, Mr. Chairman, that 
we have worked on in the Meth Caucus has been legislation 
referred to as the meth mask legislation. Our firefighters have 
breathing apparatus, etc., and they can go in. Oftentimes our 
frontline police and sheriffs, they are just going in breathing 
in these terribly dangerous chemicals, and they have to secure 
the area, sometimes wrestle with perpetrators, and they are 
exposed that whole time.
    So we believe there is a need for additional support for 
our local law enforcement officers, and we have modeled this 
along the lines of the body armor legislation, wherein local 
law enforcement agencies can apply for grants to help provide 
basic protective equipment to protect their officers on the 
street, and, from what we hear, it could be a tremendous help. 
I would be interested in Captain Kelly's comments or Sheriff 
Lucas'.
    Sheriff Lucas. I just would say that there are training 
costs that are associated with people that we send in to meth 
labs and with line level officers who may encounter a box lab 
on the street.
    There is the personnel productive equipment [PPE], that we 
have to issue for responders. There are baseline and ongoing 
medical examinations that you have to provide for people who 
are entering meth labs on a regular basis. There are the 
cleanup costs associated with the lab itself. Then there are 
property renovation costs that are associated with a lab clean-
up that normally the private property owner has to bear. If we 
go in and take down a lab, the costs are significantly more. If 
we go in to clean up marijuana growing, we go in and we whack 
down the plants, we throw them in a bag, we take them out and 
we are done, and so is the property owner. But when you take 
down the meth lab, the steps are significantly different.
    Captain Kelly. They have, I believe, hit on anything I 
could touch on, other than once you establish an officer and he 
is trained and equipped, or she, to investigate a clandestine 
lab, there is recertification ongoing, fit testing for their 
masks, medical baseline testing.
    Sacramento County, you may have a labor organization that 
says, ``Hey, those deputies or those officers that investigate 
clandestine labs get a 10 percent hazard pay.'' So those are 
additional burdens upon a department through a collective 
bargaining process.
    But certainly it is expensive. It is expensive to do so, it 
is expensive to take care of officers, and it is expensive to 
take care of a drug-endangered child.
    Mr. Baird. Perhaps this has been addressed in your earlier 
comments. I have heard very high numbers in terms of the 
estimate of the contribution in one fashion or another of 
methamphetamine to the overall crime problem, be it identity 
theft. I think you may have addressed that earlier.
    Any estimate in terms of what, either direct or indirect, 
portion of our crime problem, burglary, robbery, identity 
theft, etc., homicides, we have some huge, terrific homicides 
in our district with this. Any estimate of that or sense of it?
    Chief Martinek. We had a quote from Portland Police Bureau 
that they felt like over 80 percent of their criminal activity 
that they recorded was attributed to methamphetamine. I have 
anecdotal evidence, and certainly don't have any hard fact 
data, but I think it is not an understatement to say that most 
of the crime that we see in the Vancouver area is directly 
attributable to drug abuse, including alcohol abuse, and I 
would say a majority of that is related to methamphetamine. 
Certainly without doubt, this spike in ID theft and fraud 
related to that is absolutely attributable to methamphetamine 
users and dealers and methamphetamine organizations who use it 
as a way of funding either to buy the drugs or to buy the 
precursors to make the drugs. There is no question about that.
    Mr. Souder. Do you drug test people you arrest?
    Chief Martinek. We do have some ability to drug test. We 
don't drug test everyone. We aren't very good at keeping those 
kind of statistics on the front end. The jail does some testing 
and the hospitals do some testings that we are just now 
starting to talk about doing a better job of getting hard data 
so when we talk about these things it is not just anecdotal. 
But we don't as a Vancouver Police Department drug test.
    Mr. Souder. Do you in the prison? For prisoners, do you 
drug test, and is meth included in that kind of drug test?
    Sheriff Lucas. Some prisoners. I would attempt to address 
the 80 percent figure. Because fraud, forgery and identity 
theft is such a huge issue, the Portland Police Bureau and its 
law enforcement partners in the region have gone together to 
attempt to form a regional center for the investigation of 
economic crime. As one of the first steps in forming the 
center, we tried to relate various criminal patterns to each 
other. And their 80 percent figure said that 80 percent of 
their fraud, forgery and identity theft cases were directly 
related to methamphetamine, 90 percent if you included cocaine 
in the mix.
    Mr. Souder. Captain Kelly, do you drug test, as a pattern 
do you test for different drugs, or do you have to have 
somebody busted on a drug charge in order to do that? How do 
you pursue that?
    Captain Kelly. It would depend on their history. There have 
been programs within our jail systems, our main jail downtown, 
such as the Adam Project, the California Alcohol and Drug Data 
where we have interviewed and taken tests, and pretty much that 
is on a volunteer nature.
    What we do have, and perhaps I could send each one of you 
this, is our first year of our Cal-MMET report. We actually did 
some statistics whereby we went out and tried to capture 
arrests, narcotics, emergency room admissions and actually 
deaths related to different narcotics, and certainly 
methamphetamine was off the scale. Second, believe it or not, 
was marijuana and hashish.
    Mr. Baird. One of the questions I would like to ask when we 
have an opportunity to have on-the-line people who face these 
problems every day, if there were a couple of things, if you 
could pick two or three ways in which the Federal Government 
could help, and often, obviously, it is financial that is 
important. But it is sometimes other things. I hear about 
flexibility in the use of funds. I hear about coordination. One 
of the ways in our area, I know we have a great U.S. attorney 
who is finally bringing U.S. attorney presence.
    Mr. Chairman, you commented on the relationship between 
Portland and Vancouver. One of the challenges we face there is 
if you commit a certain drug crime across the river, it is a 
Federal offense. It is still a Federal offense on our side of 
the river, but we haven't had the resources. Having worked in 
prisons myself, they know this stuff. They know that if they 
rob a bank in Portland, OR, they are doing Federal time; if 
they rob a bank in Vancouver, WA, they are doing State time, if 
any. This drives these poor folks crazy because the robbers 
come to our side of the river. They commute.
    But the original question is, if we could do two or three 
things, given that money is finite, what would they be, to help 
on-the-line law enforcement the most to deal with this 
particular problem?
    Chief Martinek. From my perspective, Congressman, you hit 
the nail on the head, that U.S. attorney, Federal Courthouse 
and Federal law enforcement support and assistance located in 
southwest Washington is by far No. 1 in terms of having the 
judicial system in place to help us with these larger 
organizations.
    The second thing would be funding for training and 
equipment for our personnel.
    Third, absolutely of equal importance, would be dollars for 
treatment, prevention and education, because without that 
multi-disciplinary approach we are going to be chasing our 
tails. Law enforcement cannot be the only approach to that 
problem.
    Sheriff Lucas. Amen.
    Captain Kelly. My Sheriff would probably tell you send him 
the money and he will take care of it. But certainly, as I 
highlighted earlier, the personnel costs are extremely 
expensive, and that is a finite consideration here.
    When you look at the overall problem, there is education, 
there is treatment, there is mutual cooperation. Perhaps what 
we ought to do is take a look at some of the requirements to 
bring a case forward from a local law enforcement agency to the 
OCDETF level and looking at OCDETF reimbursements.
    I know that the HIDTAs are transitioning some of their 
thought process into making them OCDETF cities on a larger 
scale, whereas the Central Valley HIDTA, I believe that Bill 
Ruzzamenti, the Director of the Central Valley HIDTA, would sit 
here and tell you that $1.5 million that would be sent to the 
San Francisco area would be better spent in the Central Valley, 
whereby he can put it to use, expanding his HIDTA and gaining 
other counties into the HIDTA.
    Mandated reporting, consistent statistical reporting and 
evaluation, and expansion of the precursor vendor and 
intelligence program, those are some things that I believe 
would serve law enforcement' best interests.
    Mr. Baird. It is a wonderful thing to have folks when 
something has been said just say amen. The practice here is to 
say it yourself, but only longer. I appreciate the succinct but 
very relevant and helpful comments.
    No further questions.
    Mr. Souder. I also wanted to ask Chief Martinek, you had in 
your testimony that DEA gave you training and funding, and in 
the written statement from DEA we heard a little bit about what 
they do for training. What funding stream do they have to help 
you beyond the training?
    Chief Martinek. Beyond the training, in the training, all 
of our drug enforcement agents go through the DEA drug school 
and also to the meth lab clean-up school so they can be 
certified. But the funding is for clean-up of meth labs. There 
are cases where we can get the DEA involved in our meth lab 
investigations and they will actually be involved to the point 
where they use DEA funds to help clean those labs up.
    Mr. Souder. So it is a tie through the task force and it 
becomes a task force funded through DEA; It is not money they 
give to local police departments to do it?
    Chief Martinek. Yes, sir. That is exactly right.
    Sheriff Lucas. The other way they help us is that they 
bring resources to the table that we don't have. Many times 
when we are chasing our local crooks, they lead us up the 
supply chain. When we get to a certain point in the supply 
chain, it is very helpful to be able to call DEA and say we 
have a case, these are the facts, these are the people, can you 
help us. Many times they come to our assistance with money and 
resources that we couldn't possibly put together.
    Mr. Souder. You heard me say earlier in this hearing that 
we are going to be focusing on prevention and treatment. If you 
have specific cases, because both of your areas have dealt with 
this issue and are two of arguably the four hardest hit meth 
areas in the United States, of programs in the schools that 
target either to a particular group or subgroups on meth that 
seem to be working on prevention and on treatment.
    Now, I want to give you a warning, as we go through this 
type of thing, that just like a lot of people say, oh, why 
don't we just give up on the drug war? It is not working. They 
don't say that as much on child abuse and spouse abuse and they 
are not eliminated either. This is a tough problem, we are 
never going to eliminate it.
    But a lot of times we hear, well, the prevention and 
treatment are the hope. We have to be pursuing all ends. But, 
as you know, many of the people, if not everybody, you are 
arresting, has been through multiple treatment programs, very 
seldom anybody who hasn't been through five or six.
    How do we find out which ones are effective? We know some 
of that is insurance reasons, and we know some of it is they 
haven't really made an internal commitment. So what types of 
programs help them make an internal program in their head, a 
head and heart commitment, as opposed to a law commitment, or 
the family forced them to go in?
    What kind of treatment, and are there treatment programs 
that can specify more in detail on meth, that because you have 
been tracking this longer, you have that longer? Are there 
treatment programs that specialize in meth in your area that we 
might as it spreads across the United States and as we put 
people in treatment, that we might highlight as examples?
    Similar in prevention, in that we are always looking for 
creative ways to do this. These are a little bit different 
markets we have dealt with. In reality, it would not 
necessarily be a program that focuses solely on meth, because 
we all know it is a poly drug, just like we heard one of the 
other things we are trying to do is document individual cases.
    Part of the reason I asked you whether you measure is we 
hear these numbers. But at the same time when you read a report 
of an accident, you often don't hear ``was high on marijuana.'' 
You may see the alcohol, because often we test for the alcohol. 
But in many cases we don't even test for meth, ecstasy, LSD, 
unless there is a reason to suspect it. These tests are 
expensive for cocaine and heroin.
    Therefore, people think, oh, we don't have a drug problem. 
We have an alcohol problem. We have a poly drug problem in many 
cases, and this mix, and the alcohol becomes even more potent 
when mixed with the other drugs, including this really high 
grade marijuana.
    So the degree that you have some prevention or treatment 
programs in your area, as two of the kind of hardest hit meth 
areas of the country, we would very much appreciate that.
    Also, Captain Kelly, we will be working with chairman Ose 
too, to look at, I remember when we were in the Sacramento area 
with a hearing, we had the family, the initial lab that blew up 
and the little girl that started the lab law and the child 
abuse law in California.
    Any additional information, if you want to submit that 
here, of how that child abuse law has worked in California on 
helping you in law enforcement and in prevention and education 
areas in the community on that, it would be helpful to get it 
in the hearing's record as well.
    Also we heard you have tough precursor laws. If you could 
tell us a little bit of how you have tightened those up for the 
record, so we can show what impact that might have had in how 
we move it.
    You also used the example of the Atlanta case in the major 
lab. We will give you some of these in a printed form too. But 
because you have had so much activity in the Central Valley 
area, some of the specifics of some other cases like that 
Atlanta case, where you think some of the super lab stuff is 
being distributed.
    Mr. Baird. Could I comment in response to what you have 
just said? On the issue of treatment, particularly on meth, the 
gentleman I know mentioned our Washington State meth 
initiative. One of the things that we are very proud of is a 
Meth Moms Program.
    We have two programs working, where moms who have been 
found to be using meth are basically faced with losing their 
kids, and they are required by the courts to go through both a 
meth treatment and a parenting program. So a lot of times they 
are just rotten parents and they don't necessarily know it 
because they are so focused on meth.
    I have met with these folks, been to the program, and they 
are getting some graduates out, and it is tremendously 
gratifying to watch them actually learn to parent. One woman 
said, I thought I was being a good parent, but now that I have 
been through this, I realize that Ramen noodles every night is 
not exactly a balanced meal. She just was raised in a culture 
and by parents who had not trained her well and did not know 
how to parent, and simultaneously then was hooked on meth.
    What we are finding is they are not only coming out and 
staying clean off the meth, they are coming out and have some 
pretty good parenting skills, and at least with some of these 
folks we may finally break this cycle. Because I know the 
officers know and I used to see it in my clinical work as a 
psychologist, you see this just heart-breaking chain of people 
hooked on meth, terrible parenting skills, hooking their own 
kids on it and creating just further cycles. So this Meth Moms 
Program has been very effective.
    The other thing I think we have done some good work on is 
integration of law enforcement--I believe Vancouver and Clark 
County does this. I know Olympia does it--integration with 
child protective services and our hospitals, so that you have 
got pediatricians and child protective service workers working 
hand-in-hand with law enforcement.
    One of our programs, the CPS worker is right there right 
after the bust, goes in with the Teddy bears and stuff, not 
only takes the kids out, but takes them to foster parents who 
have been trained in meth. So you have the whole cycle, the 
kids now taken from the parents, the parents are incarcerated, 
they go get a thorough physical from doctors who know about the 
impact of meth.
    And then, when they are placed, they are placed in a foster 
home where the foster parents have been trained in meth. I 
don't know if you want to comment or there's time, but those 
kinds of programs, I think, have been working pretty well.
    Mr. Souder. A comment on that?
    Chief Lucas. Not really, but, again, my personal bias is 
toward an accountability model. In my years in law enforcement, 
in observing folks that have been involved in treatment 
programs, the closer the supervision, the tighter the 
accountability, in my opinion the more likely the individual is 
to safely--make it out the other end of the treatment program, 
relatively successful.
    Mr. Souder. Thank you.
    It was also helpful, because often we forget the U.S. 
attorney angle, and if you don't have the prisons, if you don't 
have the U.S. attorneys to prosecute, if you don't have the 
U.S. marshals to move the people, the whole system starts to 
break down. And we heard this also in northern Washington, at 
Blaine in Congressman Larson's district, as he was getting that 
county flooded, in a very small county, with people coming 
across from Vancouver. So thank you for that testimony, too.
    Thank you for all your frontline work and for taking the 
time to come here to the other Washington and the other coast 
to share with us your grass-roots experience, and hopefully we 
can incorporate these ideas into our meth bill as we move 
forward in the other areas as well.
    With that, the subcommittee hearing stands adjourned.
    [Whereupon, at 2:16 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1423.063

[GRAPHIC] [TIFF OMITTED] T1423.064

[GRAPHIC] [TIFF OMITTED] T1423.065

[GRAPHIC] [TIFF OMITTED] T1423.066

[GRAPHIC] [TIFF OMITTED] T1423.067

[GRAPHIC] [TIFF OMITTED] T1423.068

[GRAPHIC] [TIFF OMITTED] T1423.069

[GRAPHIC] [TIFF OMITTED] T1423.070

[GRAPHIC] [TIFF OMITTED] T1423.071

[GRAPHIC] [TIFF OMITTED] T1423.072

[GRAPHIC] [TIFF OMITTED] T1423.073

[GRAPHIC] [TIFF OMITTED] T1423.074


</pre></body></html>
